<html>
<title> - PERFLUORINATED CHEMICALS IN THE ENVIRONMENT: AN UPDATE ON THE RESPONSE TO CONTAMINATION AND CHALLENGES PRESENTED</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    PERFLUORINATED CHEMICALS IN THE 
ENVIRONMENT: AN UPDATE ON THE RESPONSE TO CONTAMINATION AND CHALLENGES 
                               PRESENTED

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 6, 2018

                               __________

                           Serial No. 115-163
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-246                       WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9b9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a>                              
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina
                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
ROBERT E. LATTA, Ohio                GENE GREEN, Texas
GREGG HARPER, Mississippi            MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     KATHY CASTOR, Florida
ADAM KINZINGER, Illinois             JOHN P. SARBANES, Maryland
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       G.K. BUTTERFIELD, North Carolina
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9

                               Witnesses

Peter Grevatt, Director, Office of Groundwater and Drinking 
  Water, U.S. Environmental Protection Agency....................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................   151
Maureen Sullivan, Deputy Assistant Secretary of Defense for 
  Environment, U.S. Department of Defense........................    18
    Prepared statement...........................................    20
    Answers to submitted questions...............................   161
Lisa Daniels,, Bureau of Safe Drinking Water, Pennsylvania 
  Department of Environmental Protection.........................    52
    Prepared statement...........................................    54
    Answers to submitted questions...............................   167
Sandeep Burman, Manager, Site Remediation and Redevelopment, 
  Minnesota Pollution Control Agency.............................    64
    Prepared statement...........................................    66
    Answers to submitted questions...............................   174
Carol Isaacs, Director, Michigan PFAS Action Response Team, 
  Executive Office of Governor Rick Snyder.......................    77
    Prepared statement...........................................    78
    Answers to submitted questions...............................   184
Emily Donovan, Co-Founder, Clean Cape Fear.......................    87
    Prepared statement...........................................    89
Erik Olson, Senior Director, Health and Food, Healthy People & 
  Thriving Communities Program, Natural Resources Defense Council   101
    Prepared statement...........................................   103

                           Submitted Material

Letter of June 6, 2018, from Members of Congress to the U.S. 
  Environmental Protection Agency, submitted by Mr. McNerney.....   130
    EPA response.................................................   132
Statement of the National Groundwater Association................   134
Statement of Culligan International Company......................   136
Statement of Safer Chemicals, Healthy Families...................   138
Statement of Purolite \1\
Statement of the Water Quality Association.......................   142
Letter of August 1, 2018, from Hon. Fred Upton to the National 
  Guard Bureau and the Air National Guard........................   144
Letter of July 17, 2018, from Members of Congress to the U.S. 
  Environmental Protection Agency................................   145
Letter of July 24, 2018, from the Governor of Michigan to the 
  U.S. Environmental Protection Agency...........................   147
Letter of July 24, 2018, from the Governor of Michigan to the 
  Secretary of Defense...........................................   149

----------
\1\ The information can be found at: https://docs.house.gov/
  meetings/IF/IF18/20180906/108649/HHRG-115-IF18-20180906-
  SD027.pdf.

 
PERFLUORINATED CHEMICALS IN THE ENVIRONMENT: AN UPDATE ON THE RESPONSE 
               TO CONTAMINATION AND CHALLENGES PRESENTED

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2018

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Upton, McKinley, 
Olson, Johnson, Flores, Hudson, Walberg, Carter, Duncan, Walden 
(ex officio), Sarbanes, Welch, Tonko, Ruiz, Peters, Green, 
McNerney, Cardenas, Dingell, and Pallone (ex officio).
    Staff present: Samantha Bopp, Staff Assistant; Daniel 
Butler, Legislative Clerk, Health; Karen Christian, General 
Counsel; Kelly Collins, Legislative Clerk, Energy/Environment; 
Margaret Tucker Fogarty, Staff Assistant; Ali Fulling, 
Legislative Clerk, Oversight & Investigations, Digital Commerce 
and Consumer Protection; Drew McDowell, Executive Assistant; 
Brannon Rains, Staff Assistant; Mark Ratner, Policy 
Coordinator; Annelise Rickert, Counsel, Energy; Peter Spencer, 
Senior Professional Staff Member, Energy; Madeline Vey, Policy 
Coordinator, Digital Commerce and Consumer Protection; 
Elizabeth Ertel, Minority Office Manager; Jourdan Lewis, 
Minority Staff Assistant; John Marshall, Minority Policy 
Coordinator; Tim Robinson, Minority Chief Counsel; and Tuley 
Wright, Minority Energy and Environment Policy Advisor.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. If I can ask all our guests today to please 
take their seats. The Subcommittee on Environment will now come 
to order. The chair recognizes himself for 5 minutes for an 
opening statement. All right, let's quiet down.
    Good morning. Today's hearing focuses on a class of 
emerging environmental contaminants that are highly fluorinated 
chemicals. Technically known as perfluorinated polyfluoroalkyl 
substances, they are more commonly referred to by their 
acronym, PFAS.
    PFAS is a group of man-made chemicals numbering in the 
thousands that have been manufactured and used in a variety of 
industries around the globe. These chemicals have been used to 
make coatings and products that are widely used by consumers 
due to their oil and water repellent characteristics.
    Items containing PFAS include food packaging like pizza 
boxes and microwave popcorn bags and in non-stick products like 
Teflon as well as polishes, waxes, paints, and cleaning 
products. The chemicals also serve to make components of 
firefighting foams and mist suppressants from metal plating 
operations. The military uses them in foam to extinguish 
explosive oil and fuel fires.
    PFAS are considered emerging contaminants because today's 
advanced analytical technology is increasingly detecting their 
presence in the environment and there isn't a great deal of 
toxicology data on many of these substances, meaning that we 
don't know enough to say how risky each PFAS chemical is or 
what the exact impact of exposure to these substances will be 
for each person.
    In truth, while we are only on the front end of the 
understanding how they move in the environment or their effect 
on the environment and public health, what we do know is that 
because of their unique properties and vast usage, most people 
have come into contact with at least one PFAS. In addition, 
studies on a few PFAS chemicals suggest those chemicals might 
cause health problems for humans. And, these PFAS chemical 
appear to be very persistent in the environment and in the 
human body, meaning they don't break down.
    In the past few years, public anxiety about PFAS detection 
and uncertainty about what to do about it has grown. News 
reports have highlighted several communities, near military 
bases or facilities making PFAS, have discovered these 
chemicals in their drinking water.
    This hearing is about starting the dialogue on PFAS. It 
means taking stock of what the government knows about PFAS, 
what efforts to contain its contamination have promise, and 
what is preventing people from being helped with cleanup or 
avoid contamination of their air, soil, and water. It is time 
to figure out what can be done right now and what needs to be 
done to respond appropriately to legitimate risks created by 
PFAS contamination in the environment.
    I understand that in 2016 EPA established health advisories 
for certain PFAS chemicals to provide drinking water system 
operators and state, tribal, and local officials with 
information on health risks of these chemicals. In addition, in 
May of this year, EPA kicked off a national PFAS effort. We 
welcome back the committee, Dr. Grevatt, the unofficial EPA 
PFAS czar who will walk us through EPA's ongoing as well as 
future plans for addressing PFAS.
    We also will hear from the Department of Defense because 
the various branches of the military have often used these 
chemicals for fire suppression and now many military 
installations are faced with significant issues concerning PFAS 
contamination. We welcome Mr. Niemeyer, the Department 
Assistant Secretary of Energy, Installations, and Environment--
that is not right--Ms. Sullivan, who will talk us through what 
DOD is doing to tackle this issue.
    For the critical state perspective, which represents the 
front lines for addressing the issue, we will hear from our 
friends in the state drinking water and solid waste agencies. 
We welcome back Ms. Daniels who is here on behalf of the 
Association of State Drinking Water Administrators, and Mr. 
Sandeep who is here on behalf of the Association of State and 
Territorial Solid Waste Management Officials.
    Without stealing from my colleagues from Michigan and their 
thunder, I also want to welcome Ms. Isaacs from the Governor's 
Office in Lansing. She is the official Michigan PFAS czarina 
and it will be good to understand her State's work in this 
area.
    And with that I would like to yield to Mr. Hudson for the 
remaining of my time.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    The Subcommittee will now come to order and I will 
recognize myself for 5 minutes for the purpose of offering an 
opening statement.
    Good morning.
    Today's hearing focuses on a class of emerging 
environmental contaminants that are highly fluorinated 
chemicals. Technically known as perfluoroalkyl and 
polyfluoroalkyl substances--they are more commonly referred to 
by their acronym: PFAS. Many of us are familiar with these 
substances because of the work of our colleagues, Mr. Tonko, 
Mr. Upton, and Mr. Hudson, in their districts and states.
    PFAS is a group of man-made chemicals, numbering in the 
thousands, that have been manufactured and used in a variety of 
industries around the globe. These chemicals have been used to 
make coatings and products that are widely used by consumers 
due to their oil and water repellent characteristics. Items 
containing PFAS include food packaging like pizza boxes and 
microwave popcorn bags, and in nonstick products like Teflon, 
as well as polishes, waxes, paints, and cleaning products. The 
chemicals also serve to make components of fire-fighting foams 
and mist suppressants for metal plating operations. The 
military used them in foam to extinguish explosive oil and fuel 
fires.
    PFAS are considered emerging contaminants because today's 
advanced analytical technology is increasingly detecting their 
presence in the environment and there isn't a great deal of 
toxicology data on many of these substances--meaning we don't 
know enough to say how risky each PFAS chemical is or what the 
exact impact of exposure to these substances will be for each 
person.
    In truth, while we are only on the front end of 
understanding how they move in the environment or their effect 
on the environment and public health, what we do know is that 
because of their unique properties and vast usage, most people 
have come into contact with at least one PFAS.
    In addition, studies on a few PFAS chemicals suggest those 
chemicals might cause health problems for humans. And, these 
PFAS chemicals appear to be very persistent in the environment 
and in the human body--meaning they don't break down.
    In the past few years, public anxiety about PFAS detection 
and uncertainty about what to do about it has grown. News 
reports have highlighted several communities, near military 
bases or factories making PFAS, have discovered these chemicals 
in their drinking water.
    This hearing is about starting the dialogue on PFAS. It 
means taking stock of what the government knows about PFAS, 
what efforts to contain its contamination have promise, and 
what is preventing people from being helped with cleanup, or 
avoid contamination of their air, soil, and water. It's time to 
figure out what can be done right now and what needs to be done 
to respond appropriately to legitimate risks created by PFAS 
contamination in the environment.
    I understand that in 2016 EPA established health advisories 
for certain PFAS chemicals to provide drinking water system 
operators, and state, tribal and local officials with 
information on the health risks of these chemicals. In 
addition, in May of this year, EPA kicked off a national PFAS 
effort. We welcome back to the Committee, Dr. Grevatt--the 
unofficial ``EPA PFAS Czar'' who will walk us through EPA's 
ongoing as well as future plans for addressing PFAS.
    We will also hear from the Department of Defense because 
the various branches of the military have often used these 
chemicals for fire suppression and now many military 
installations are faced with significant issues concerning PFAS 
contamination. We welcome Ms. Maureen Sullivan, the 
Department's Deputy Assistant Secretary for Environment who 
will walk us through what DoD is doing to tackle this issue.
    For the critical state perspective, which represents the 
front lines for addressing the issue we will hear from our 
friends in the State drinking water and solid waste agencies. 
We welcome back Ms. Daniels who is here on behalf of the 
Association of State Drinking Water Administrators and Mr. 
Sandeep who is here on behalf of the Association of State and 
Territorial Solid Waste Management Officials.
    Without stealing my colleagues from Michigan's thunder, I 
also want to welcome Ms. Issacs from Governor's Office in 
Lansing. She is the official Michigan PFAS Czarina and it will 
be good to understand her State's work in this area.
    Last, but not least, we welcome back Mr. Olson from NRDC 
and extend a new welcome to Ms. Donovan from Clean Cape Fear 
who will, respectively, provide the perspective of national 
environmental advocates and a local community affected by 
contamination from PFAS chemicals known as GenX. Members of 
this committee should be familiar with EPA's work on this PFAS 
compound because of our work by Mr. Hudson.
    I hope that this hearing will result in a productive 
dialogue that will allow the Subcommittee to better understand 
the challenges presented by these chemicals; the roles of 
Federal, State, and local officials and programs--like the 
Drinking Water State Revolving Loan Fund that we renewed on 
voice vote; and what the current response is and what may need 
to be done to improve what we are doing across the country.
    Before closing, I want to acknowledge that my Democrat 
colleagues are seeking a hearing on implementation of reforms 
to title I of the Toxic Substances Control Act. While we could 
have foreseen that the new law would be litigated, we could not 
have expected the acrimony that has occurred so quickly about 
these provisions. Moreover, many of us were told to expect 
implementation of this law to go one way, only to see it play 
out quite the opposite. While our staff has been receiving 
briefings every few months, the uncertainty surrounding a 
political head in the chemicals' office has complicated a 
having a hearing. I promise my colleagues that I will see what 
can be done with the time available to us to look at this 
subject.
    I now yield to my colleague from New York, our subcommittee 
Ranking Member, Mr. Tonko.

    Mr. Hudson. Thank you, Chairman Shimkus and Ranking Member 
Tonko. I appreciate you holding this hearing today on PFOS and 
PFAS chemicals. This issue remains a top priority for me and I 
am looking forward to hearing from our witnesses today.
    I want to thank the EPA for agreeing to testify so we can 
continue to learn more about these chemicals. The EPA recently 
accepted an invitation to hold its third community engagement 
summit in my district. Dr. Grevatt, I look forward to hearing 
from you and what you have learned at that summit as well as 
discussing what plans EPA has to release a public health 
advisory specifically for GenX.
    I also want to thank Emily Donovan, a former North 
Carolinian, who will be testifying on our second panel. Too 
often we are focused on the technical sides of these issues and 
forget at the end of the day we are talking about real people. 
So I look forward to Emily's testimony that will put a human 
face on this issue, Mr. Chairman.
    And with that I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
recognizes the gentleman from New York, my good friend Mr. 
Tonko, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and welcome to our guests, 
including the czars and czarina. So, it is awesome to have you 
here.
    Seventy parts per trillion, per trillion--it is hard to 
even fathom that amount--drops in an Olympic-sized swimming 
pool, but that is the health advisory level established by EPA 
for lifetime exposure to PFOA and PFOS in drinking water. When 
we discuss other serious drinking water contaminants we often 
deal in parts per billion. Lead and perchlorate and other 
dangerous contaminants are considered on a scale order of 
magnitude larger than PFOA. That gives you a sense of how toxic 
this class of chemicals is.
    After a number of high profile incidents in 2016, EPA 
significantly lowered its health advisory level from 400 parts 
per trillion to 70. Since then, we have seen some States set 
standards lower than 70 parts per trillion, and the press has 
reported what appears to be political interference that sought 
to delay a CDC toxicity study which suggests that these 
substances are dangerous at even lower levels than previously 
stated by EPA.
    Clearly, we have issues with risk communication. So I 
understand the frustration felt by individuals and communities 
that do not know who to trust. Perfluorinated substances, 
collectively known as PFAS, have been linked to cancer, to 
thyroid disease, and other serious health problems. These 
compounds such as PFOA, PFOS, and GenX have been used for 
industrial purposes including cookware, food packaging, and 
firefighting foam.
    We know PFAS are toxic, bioaccumulative, and stick around 
in the environment for years to come. We know almost all 
Americans have had some PFAS exposure and we know drinking 
water contaminations are being found in communities across our 
country. Research from Environmental Working Group estimated 
PFAS contamination in the water supplies of 15 million 
Americans. Due to how these chemicals are monitored the number 
is likely underestimated.
    Under the EPA's Unregulated Contaminant Monitoring Rule, or 
UCMR, from 2013 to 2016, all U.S. public water systems serving 
10,000 or more customers tested their supplies for PFOA, PFOS, 
and other similar compounds, but as it is UCMR is not adequate. 
It only covered six PFAS out of thousands within this chemical 
class that have been found in products or the environment.
    About 50 million Americans are served by water systems that 
were not required to test for these PFAS at all, and 15 percent 
of Americans rely on private wells which are not covered by any 
EPA drinking water standards or testing requirements. 
Communities nearby my district are dealing with the 
consequences of contamination. Hoosick Falls, New York, in 
Upstate New York, only discovered they had a problem after a 
private citizen tested his water.
    I want to stress that communities like Hoosick Falls and 
Newburgh in Upstate New York and the dozens and dozens of 
others are not unique and the elevated rates of cancer and 
unusual diseases are surely not a coincidence. It should not 
and cannot fall upon every private citizen to test the water 
only after a loved one passes away from kidney cancer. This is 
why we have national protective standards that require 
monitoring and treatment for dangerous common contaminants. We 
need EPA action on an enforceable standard, but without such 
action this committee has made efforts to ensure more 
widespread monitoring of PFOA and PFOS.
    In the Drinking Water System Improvement Act passed by the 
committee last year, we would require water systems serving 
more than 3,300 people to test for unregulated contaminants, a 
vast improvement over that 10,000. Unfortunately, this does not 
help people served by the smallest systems or private well, but 
it is a start.
    Mr. Chair, we should continue to look into additional ways 
to improve testing and monitoring. Today is a great opportunity 
for us to learn what EPA and state governments are doing to 
address the growing course of concerns from scientists and 
private citizens about the risks posed by PFAS. I hope we will 
hear that EPA is exploring all regulatory options available and 
plans to act expediently. But even on the most aggressive 
timeline, regulatory action will likely take years, so we must 
consider what can be done right now to identify contaminations, 
prevent exposure, and expedite cleanups.
    We are also joined today by the Department of Defense. For 
decades, aqueous film-forming foam, a firefighting foam that 
contains PFAS, has been used by DOD and commercial airports. In 
communities where PFAS are not manufactured, ground water 
contamination has often been traced to a nearby DOD 
installation where these firefighting foams have been used. 
Communities near these bases and industrial facilities did not 
sign up for this risk and deserve, deserve clean water.
    DOD must step up and make it right. We know the cost of 
remediation can be expensive and the health consequences of 
exposure can indeed be fatal. Ultimately, we must hold 
polluters accountable to clean up and make the communities and 
families that have suffered from this pollution whole again. 
And yes that standard must apply to our United States 
Department of Defense.
    Mr. Chair, I am grateful that you have called this hearing 
today. I expect we will learn a lot about the options of EPA, 
DOD, states, and communities to protect people from these 
dangerous contaminants. But a hearing is not enough. I firmly 
believe there is a need for legislation to ensure that adequate 
testing, monitoring, remediation, and protection is occurring, 
and this can best be guaranteed if Congress requires EPA to 
take the steps necessary to make a determination on a maximum 
contaminant level in addition to other potential protective 
actions.
    I believe there are legislative proposals that would have 
bipartisan support and I hope we can continue to look into this 
issue based on today's conversations. With that Mr. Chair, I 
yield back.
    Mr. Shimkus. The gentleman yields back his time. We can 
tell by the length of the statement that Jackie has returned, 
so welcome back.
    Mr. Walden. Swing and a hit.
    Mr. Shimkus. The chair now recognizes the chairman of the 
full committee, Chairman Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. It is really, really important work and I 
know many of our colleagues on the dais--Mr. Hudson, Mrs. 
Dingell, Mr. Upton and others--have been very involved in this.
    On my way back to Washington at the end of last week, I 
went at Mr. Upton's request to Michigan to learn more firsthand 
from him about this horrible situation in his district and 
state. And I think it is really important we got right on this 
hearing. I appreciate everybody's input.
    We are going to do three things here today. First is we 
need to increase our understanding of what the government knows 
or doesn't and establish what the public should know about the 
risks, how confident they should be in that information, and 
the best ways to prevent unhealthy exposure to these chemicals.
    Second, we need to explore what can be done right now to 
address contamination by these substances based on what we do 
know starting with the practical steps that may be taken to 
reduce risk from contamination. And third purpose of the 
hearing, it should help develop an outline for a more sustained 
strategy to fill important information gaps, identify any 
longer terms challenges, and set realistic expectations for 
results based on science and risk-informed decision making.
    And that is why we have our witnesses today who can help us 
in this effort. I want to thank Chairman Shimkus for assembling 
these two very good panels of witnesses. They have important 
knowledge not only on the complicated nature of PFAS 
contaminated sites and the state of the science on these 
contaminates, but also on policy.
    I know EPA announced a more comprehensive PFAS plan this 
past May and have been traveling the country to hear from 
people impacted by PFAS contamination. And we look forward to 
hearing what EPA ranks PFAS exposure in terms of other 
environmental and public threats that are facing us and how the 
Federal Government plans to try to tackle the issues associated 
with PFAS chemicals including around Defense Department sites.
    And we look forward to learning about the technical and 
economic barriers that states and communities face in dealing 
with this contamination. We have seen these sorts of things 
before in America. We know how difficult they can be and deadly 
they can be in various examples in the past including at 
Department of Defense sites. I think of Hanford in my region 
and the waste that is there from World War II we are still 
trying to clean up, and other things that have occurred around 
the country.
    So I appreciate our panel being here. I appreciate this 
hearing. I am going to yield the balance of my time to the 
former chairman of this committee, nobody who has worked harder 
on this issue--got on it right away with Governor Snyder--than 
Fred Upton. So, Mr. Upton, I would yield the balance of my time 
to you.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you for yielding to me, Mr. Chairman. I will be 
brief.
    Today, the Environment Subcommittee is holding a hearing on 
a class of certain man-made organic chemicals--what are known 
as per-fluorinated chemicals--that are found in many common 
household items such as food packaging, non-stick cookware, 
clothing, shoes, furniture, and carpets.
    I know these chemicals are a topic on the minds of many 
Americans. I was recently in Michigan with Mr. Upton and 
understand the concerns of many there where these chemicals are 
so pervasive, toxicity information for numerous PFAS is 
illusive, and people are rightly confused and scared. I 
understand, from Mr. Hudson, that a similar situation exists in 
his state and I appreciate his efforts to help North 
Carolinians.
    The goal of this hearing is three-fold.
    First: the hearing should help increase our understanding 
about what the government knows--or doesn't--and establish what 
the public should know about the risks, how confident they 
should be in that information, and the best ways to prevent 
unhealthy exposures to these chemicals;
    Second: it should explore what can be done right now to 
address contamination by these substances based on what we 
know, starting with the practical steps that may be taken to 
reduce risks from contamination; and
    Third, it should help develop an outline for a more 
sustained strategy to fill important information gaps, 
identifying any longer-term challenges, and setting realistic 
expectations for results based on a science and risk-informed 
decision-making.
    I would like to thank Chairman Shimkus for assembling these 
two informative panels of witnesses. They have important 
knowledge on not only the complicated nature of PFAS 
contaminated sites and the state of the science on these 
contaminants, but also on the policy.
    I know EPA announced a more comprehensive PFAS plan this 
past May and has been traveling the country to hear from people 
impacted by PFAS contamination. We look forward to hearing 
where EPA ranks PFAS exposure in terms of the other 
environmental and public threats it is facing, how the federal 
government plans to try to tackle the issues associated with 
these PFAS chemicals, including around Defense Department 
sites, and to learning about the technical and economic 
barriers that states and communities face in dealing with this 
contamination.
    I want to thank our witnesses for agreeing to be with us 
today. We welcome your insights on both the science and the 
policy of this complicated issue. I look forward to our 
testimony and learning from your experience and persepectives.
    Thank you again Mr. Chairman for this time. I yield back 
the remainder of my time.

    Mr. Upton. Well, thank you, Mr. Chairman. And I want to 
particularly thank you too, Mr. Chairman Shimkus, not only for 
this hearing this morning, but also for your great work in the 
last Congress to pass TSCA legislation, something that passed 
this committee when I was chairman, on a unanimous vote thanks 
to your leadership, and really provided the EPA the authority 
to begin to look at all these somewhat unregulated chemicals 
for the first time in 40 years. And had that not happened we 
probably wouldn't be here today. So that work really paid off.
    Let me just share with you a couple things at what happened 
when I went back to Michigan beginning the August break. I 
literally was just off the plane on my way home when I got a 
call from my state senator, Margaret O'Brien, and she said, 
Fred, I have really bad news. We just got the results from a 
small city in my district, Parchment, and they are 20 times the 
standard for PFAS and we are assembling a meeting yet tonight, 
we want you to come.
    And so I went to the other end of my district, it was not a 
problem, and we spent about 5 or 6 hours there that night. We 
had a conference call with the state with every player of any 
importance to figure out what we should do. And we praised the 
media, because this particular town doesn't have the system on 
their cells even though earlier in the week here in Washington 
we got a weather alert that everyone's cell phone buzzed, take 
cover, flooding, et cetera, we didn't have that ability to do 
that in Parchment.
    But we knew at 1,400 parts per trillion, 20 times the 
standard that they should not be using that water right away. 
People were ready to go door-to-door to tell folks in this 
small community don't put the water out for your pet, don't use 
it for infant formula, don't make it for coffee in the 
morning--just disconnect your icemaker, no water for cooking, 
and thanks to the media, particularly Channel 3 and Channel 8, 
they came out with radio stations and the word was out right 
away to stop.
    And for a month we literally were giving bottled water to 
everyone in those two communities, City of Parchment and Cooper 
Township. That water just got turned on last week and when they 
were able to connect with the City of Kalamazoo to hook up. But 
you still have a good number of private wells and others that 
are in trouble because that level is too high.
    So as the Governor said, this is a textbook case of what 
ought to happen, getting the word out, trying to figure out 
what is the next step, but immediately take care of the 
residents that were there. So I want to praise so many people 
on the ground.
    I know that we have a good panel, a couple panels here 
ahead of us. I look forward to the questions. But, Mr. 
Chairman, I appreciate you taking this hearing up literally the 
first week that we are back so that we can better understand 
this and help other communities that yes will be on the same 
path as Parchment and Cooper Township in the future. I yield 
back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
recognizes the ranking member of the full committee, Mr. 
Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. PFAS contamination is 
a very serious issue affecting communities nationwide. We will 
hear today from some of those communities and I urge my 
colleagues to listen closely to the firsthand accounts of the 
harm these chemicals can cause.
    These health issues include multiple types of cancers, 
impaired childhood development, reproductive issues, hormone 
disruption, increased cholesterol levels, and immune system 
issues. And Americans across this country are being injured 
right now by these chemicals and it seems that more affected 
communities are being discovered all the time.
    This hearing is a good start but the communities affected 
by PFAS contamination need more than just a hearing. They need 
real solutions and real action from the EPA and the DOD. The 
impacted states need more than just summits and enforceable 
advisories. We need a binding, enforceable, and strong drinking 
water standard.
    Democrats on this committee have been pushing to set a 
deadline to promulgate a strong drinking water PFAS standard 
for several years and recently we have heard calls for 
alternative approaches to address these chemicals from 
communities and experts who don't believe EPA's regulatory 
process under the Safe Drinking Water Act will actually work, 
and it isn't hard to see why.
    In 2016, the EPA released a health advisory for two 
chemicals in this category at 70 parts per trillion. We know 
this level is too high to protect public health. States have 
known it for years and have set their own standards much lower, 
yet millions of Americans currently receive water that exceeds 
even this weak standard and the problem is spreading.
    The more water systems we test for PFAS, the more 
contamination we find. Earlier this year, the Agency for Toxic 
Substances and Disease Registry drafted a report identifying 
hazardous effects well below the EPA health advisory standard. 
Instead of acting on this information to protect the public 
health, the EPA and the White House worked to block publication 
of the report.
    And the Trump administration feared the potential public 
relations nightmare more than public health nightmare facing 
many communities today, so this is yet another outrageous 
example of the Trump administration ignoring the health needs 
of the American people. And we have seen these delay tactics 
before, particularly with another drinking water contaminant 
spread by the Department of Defense, namely perchlorate.
    Next month will mark a decade since EPA determined that a 
drinking water standard for perchlorate was needed and we still 
have yet to see a proposed rule. So some may say that these 
troubling actions show that the Safe Drinking Water Act won't 
work, but I think Congress can make it work. Congress should 
play a central role in setting the timeline for developing the 
PFAS drinking water standard and ensuring that the standard is 
truly protective of public health. And I hope this hearing is a 
sign that committee Republicans are finally beginning to share 
this view.
    Additional actions under other environmental laws may be 
needed to fully address this contamination and support these 
communities, so I hope this subcommittee can work together 
quickly to address PFAS contamination and implement some of the 
solutions that we will hear about today.
    And I would like to yield the remainder of my time to the 
gentlewoman from Michigan, Mrs. Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman, and thank you to 
Chairman--well, I meant Ranking Member, but thank you, Chairman 
Shimkus and Ranking Member Tonko, for holding this important 
hearing today to discuss and highlight the growing presence of 
harmful perfluorinated chemicals being discovered across the 
country.
    There is an old saying that says nothing lasts forever. 
Unfortunately, nothing that is except for fluorinated chemicals 
which were designed to stand the test of time. These chemicals, 
their dangers already having been laid out by my colleagues, 
can be found all around us, and in recent years we have seen 
more and more cases of confirmed contamination sites in the 
environment and drinking water sources, especially across 
Michigan.
    And like my colleague, Mr. Upton, we too found very 
dangerous levels in fish in the Huron River and have had the 
same crisis during the month of August. As we continue to test 
for PFAS I fear that this is only the beginning, the trend is 
going to continue. PFAS are man-made and will require a man/
woman-made solution from all of us working together, every 
Federal agency, every state and local official and Congress 
needs to immediately take this issue seriously.
    I look forward to working with everyone on this committee 
and my colleague, Mr. Upton, and I, who will be shortly 
introducing legislation. Thank you and I yield back.
    Mr. Shimkus. The gentleman yields back his time and the 
chair thanks the individuals.
    We want to thank all our witnesses for being here today and 
taking the time to testify before this subcommittee. Today's 
witnesses have the opportunity to give opening statements 
followed by a round of questions from members. Our first 
witness panel for today's hearing includes Dr. Peter Grevatt, 
Director, Office of Groundwater and Drinking Water, U.S. 
Environmental Protection Agency, and Ms. Maureen Sullivan, 
Deputy Assistant Secretary of Defense for Environment, U.S. 
Department of Defense.
    We appreciate you being here today. We will begin the panel 
with Dr. Grevatt and you are now recognized for 5 minutes for 
your opening statement. Thanks for being back and joining us.

 STATEMENTS OF PETER GREVATT, DIRECTOR, OFFICE OF GROUNDWATER 
 AND DRINKING WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; AND 
  MAUREEN SULLIVAN, DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR 
            ENVIRONMENT, U.S. DEPARTMENT OF DEFENSE

                   STATEMENT OF PETER GREVATT

    Mr. Grevatt. Good morning, Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee. I am Peter Grevatt, 
Director of the Office of Groundwater and Drinking Water at the 
U.S. Environmental Protection Agency. I also serve as chair of 
EPA's cross-agency efforts to address per and polyfluoroalkyl 
substances, or PFAS. Thank you for the opportunity to testify 
today.
    Protecting America's drinking water is one of EPA's top 
priorities and I am here today to share with you the actions 
the Agency is taking to address PFAS. PFAS are a group of man-
made chemicals that have been in use since the 1940s and PFAS 
are or have been found in a wide array of consumer products and 
as an ingredient in firefighting foam.
    PFAS manufacturing and processing facilities, airports, and 
military installations are some of the contributors of PFAS 
releases into the air, soil, and water. Because of their 
widespread use, most people have been exposed to PFAS and there 
is evidence that exposure to certain PFAS may lead to adverse 
health effects. EPA has taken steps under its various statutory 
authorities to understand and address these chemicals. For 
example, under the Toxic Substances Control Act, the Agency has 
issued various significant new use rules for certain PFAS 
chemicals to guard against their reintroduction into new use or 
new use with prior EPA review.
    Under the Safe Drinking Water Act, which my office 
oversees, EPA has also monitored for six PFAS to understand the 
nationwide occurrence of these chemicals in our drinking water 
systems and in 2016, EPA issued drinking water lifetime health 
advisories for two well-known PFAS compounds, PFOA and PFOS, of 
70 parts per trillion.
    EPA is also working to move research forward on PFAS to 
better understand their health impacts, options for treatment, 
and how information on better known PFAS compounds can be 
applied to inform our knowledge of other PFAS. To build on 
these actions, EPA hosted a PFAS National Leadership Summit in 
May of 2018. The summit provided an opportunity for 
participants to share information on ongoing efforts, to 
identify specific near-term actions, and to address risk 
communication challenges.
    At the event, EPA committed to work on four significant 
actions: First, to initiate the steps to evaluate the need for 
a maximum contaminant level for PFOA and PFOS; second, to begin 
the necessary steps to consider designating PFOA and PFOS as 
hazardous substances; third, to develop groundwater cleanup 
recommendation for PFOA and PFOS at contaminated sites; and 
lastly, to develop draft toxicity values for the PFAS compounds 
GenX and PFBS.
    EPA also continues to provide support to states, tribes, 
and communities who are addressing PFAS issues. As EPA takes 
these actions, the Agency is also committed to working with our 
Federal partners including the Department of Defense and the 
Department of Health and Human Services. We look forward to 
continuing our interagency dialogue and collaboration.
    Additionally, EPA recognizes the need to hear from 
citizens. Since June, EPA has traveled to five states across 
the country to hear directly from impacted communities and 
these experiences have been invaluable and community feedback 
will now shape how we move forward. EPA will consider 
information from the National Leadership Summit, the community 
engagements, and the public docket to develop a PFAS Management 
Plan.
    Protecting public health is EPA's top priority. Acting 
Administrator Wheeler has expressed his continued commitment to 
considering actions on PFAS so that EPA can lead efforts that 
meet the needs of impacted communities.
    Once again Chairman Shimkus, Ranking Member Tonko, and 
members of the subcommittee, thank you for the opportunity to 
discuss PFAS. I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Grevatt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Shimkus. Thank you very much.
    We next turn to Ms. Maureen Sullivan. Your full statement 
is in the record. You have 5 minutes.

                 STATEMENT OF MAUREEN SULLIVAN

    Ms. Sullivan. Chairman Shimkus, Ranking Member Tonko, and 
distinguished members of the subcommittee, I am Maureen 
Sullivan, the Deputy Assistant Secretary of Defense for 
Environment. My portfolio includes policy and oversight of 
DOD's programs to comply with environmental laws such as the 
Safe Drinking Water Act and the Comprehensive Environmental 
Response Compensation and Liability Act, CERCLA. That is a 
mouthful.
    I want to thank Congress for your strong support for the 
Department of Defense, our national security priorities, and 
for funding that we need to protect our nation. Ensuring the 
health and safety of our service members, the families living 
on our installations, and the surrounding communities is one of 
our top priorities.
    I want to thank this committee for the opportunity to 
discuss the establishment of a national approach to per and 
polyfluoroalkyl substances, PFAS. We believe DOD has been 
leading the way to address these substances. One commercial 
product that contains PFOS is aqueous film-forming foam, or 
AFFF. This highly effective firefighting foam has been used by 
the Department of Defense, commercial airports, local fire 
departments, and the oil and gas industry. However, it only 
accounted for approximately 3 to 5 percent of the PFOS 
production in calendar year 2000.
    And the Department of Defense is just one of the many users 
of the foam. DOD has committed substantial resources in the 
last 2 years and taken significant actions to respond to the 
concerns from PFOS and PFOA. When EPA issued the lifetime 
health advisory for PFOS and PFOA in 2016, the Department 
quickly acted to voluntarily test our 524 drinking water 
systems that serve approximately two million people on our 
installations worldwide. Twenty four of these systems tested 
above EPA's LHA level.
    Although it is only an advisory, DOD followed EPA's 
recommendations to include providing bottled water or 
additional water treatment at those locations. CERCLA provides 
consistent approach across the Nation for cleanup. The Defense 
Environmental Restoration Program statute provides authorities 
to DOD to perform and fund actions and requires they be carried 
out in accordance with CERCLA.
    The first step is to identify the source of known or 
suspected releases. The Department of Defense has identified 
401 active and Base Realignment and Closure installations with 
at least one area where there is a known or suspected release 
of PFOS or PFOA. The Military Departments then determined 
whether there was exposure through drinking water and, if so, 
the priority is to cut off human exposure where drinking water 
exceeds EPA's lifetime health advisory. Once the exposure 
pathway is broken, the Military Departments prioritize the 
sites for further action using the longstanding CERCLA risk-
based process, worst first.
    These known and suspected PFOS and PFOA release areas are 
in various stages of assessment, investigation, and cleanup. To 
prevent further releases to groundwater, DOD issued a policy in 
January of 2016 requiring the Military Departments to prevent 
uncontrolled, land-based AFFF releases during maintenance, 
testing, and training activities. The policy also requires the 
Military Departments to remove and properly dispose of supplies 
of AFFF containing PFOS other than for shipboard use.
    Currently, no fluorine-free version of AFFF meets the 
military's stringent performance requirements to extinguish 
petroleum fires. From fiscal year 2017 to fiscal year 2019, we 
solicited research products to identify and test the 
performance of fluorine-free AFFF. These efforts support DoD's 
commitment to finding an AFFF alternative that meets critical 
mission requirements while protecting human health and the 
environment and will represent at least $10 million in research 
and development funding.
    In summary, DOD is taking actions to reduce the risks. We 
are committed to mitigating PFOS and PFOA releases to the 
environment that are a direct result of DOD activities. We are 
making significant investments in a fluorine-free AFFF. These 
combined efforts reinforce DOD's commitment to meeting critical 
mission requirements while protecting human health and the 
environment. Thank you very much.
    [The prepared statement of Ms. Sullivan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Shimkus. The chair thanks the gentlelady.
    We now conclude with the opening statements from our panel 
and we would like to recognize members for their round of 
questions. And we would like to start by recognizing myself for 
5 minutes, and this is to Dr. Grevatt.
    A little over a year ago, our committee unanimously 
reported a bill to reauthorize and modernize the Safe Drinking 
Water Act to help water systems comply with federal mandates 
and keep their water safe. The centerpiece of that bill was a 
5-year, $8 billion reauthorization of the Drinking Water State 
Revolving Loan Fund. We are quite proud of that bill and I want 
to explore how that bill can help with PFAS contamination.
    Can Drinking Water State Revolving Funds themselves be used 
for infrastructure upgrades needed for things like treatment, 
well upgrades, or distribution upgrades to help address levels 
of PFAS?
    Mr. Grevatt. Thank you, Chairman Shimkus. Yes. Yes, 
certainly that fund can be used for those purposes.
    Mr. Shimkus. Would this include filtration, disinfection 
and disinfectant facilities, and project planning and design 
activities?
    Mr. Grevatt. Yes, sir. The fund can be used for those 
purposes as well.
    Mr. Shimkus. What about Drinking Water State Revolving Fund 
set-asides? May these be used by a state to provide technical 
assistance to support PFAS related work?
    Mr. Grevatt. Certainly the set-asides can be used for those 
purposes and are used quite broadly across the country to 
support these efforts.
    Mr. Shimkus. Would this apply to contamination and 
treatment problems, outreach, and training on new issues for 
water system workers' scoping studies for treatment purposes?
    Mr. Grevatt. Yes, sir. All those things would be covered by 
the Drinking Water SRF as eligible activities.
    Mr. Shimkus. Thank you. We have several viewpoints on what 
government should do to address PFAS contamination. What 
specific actions under existing statutory authority can Federal 
Government take to address PFAS?
    Mr. Grevatt. Thank you, Chairman. So there are many actions 
across the broad authorities that we have at EPA currently that 
we are using right now to address PFAS and those include 
actions under the Safe Drinking Water Act. For example, the 
Unregulated Contaminant Monitoring Rule effort that a number of 
the members have cited under SDWA focused on PFAS. The last 
round we have the opportunity to develop drinking water health 
advisories which we did for PFAS compounds and we also have the 
opportunity as a number of the members have noted to develop 
maximum contaminant levels. That particular action is one that 
we are looking at very carefully as we speak. We have used 
steps under TSCA to address PFAS compounds including under TSCA 
Section 5. We have also used our authorities under CERCLA to 
address PFAS compounds at contaminated sites. So there are many 
opportunities that exist today to address these issues.
    Mr. Shimkus. Which of these actions has EPA or others in 
the Federal Government not used and why?
    Mr. Grevatt. So likely the two most significant that folks 
may be thinking about are the development of an MCL and also 
the listing of PFAS compounds as hazardous substances under 
CERCLA. And both those actions that EPA committed in its 
National Leadership Summit to explore very carefully and we are 
involved in that process right now as we speak.
    They are both potentially very important in terms of the 
requirements that would be put on community water systems 
across the country on an MCL and also the hazardous substance 
listing would provide EPA with the opportunity to both order 
cleanup actions and recover costs that EPA may expend in 
cleanup actions. So they are both very important steps. There 
are many different ways to achieve the hazardous substance 
listing not only through CERCLA but through a number of the 
other statutes that currently are in place that EPA is 
responsible for fulfilling.
    Mr. Shimkus. Thank you.
    Ms. Sullivan, your testimony notes that DOD is taking 
response actions in accordance with CERCLA or Superfund law. 
Does DOD agree that cleanup of PFAS contamination is governed 
under CERCLA?
    Ms. Sullivan. Yes, sir. Following the longstanding process 
that EPA has established under CERCLA it is considered a tier 3 
value. The reference dose behind the lifetime health advisory 
can be used and is being used to determine the risk associated 
with sites.
    Mr. Shimkus. I will end my questions and yield back my time 
and turn to the ranking member, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And, Dr. Grevatt, thank you for your testimony. You 
described a number of actions EPA committed to doing earlier 
this year. I would ask here, what steps must be taken before 
EPA can make a determination about PFOA and PFOS as a hazardous 
substance under Section 102 of CERCLA and what is the timeline 
for that decision?
    Mr. Grevatt. Right. Thank you very much, Ranking Member 
Tonko. I appreciate the question and as I note it is a very 
important issue. And so there are a number of ways that EPA can 
achieve this hazardous substance listing through CERCLA as you 
noted, but also through TSCA, through the Clean Water Act, 
through the Clean Air Act, so there are a number of different 
ways to achieve a hazardous substance listing.
    And EPA is currently looking at the various authorities 
including RCRA that allow us to list these as hazardous 
substances thinking carefully about the different steps that 
would be involved under each of those statutory authorities and 
weighing which ones are going to make the most sense in this 
case. Ultimately, the administrator will be making the decision 
both as to whether he wants to proceed with the hazardous 
substance listing and then under which statutory authority to 
address that.
    Mr. Tonko. And again what would the timeline for the 
decision be?
    Mr. Grevatt. So EPA is going to be developing a National 
Management Plan for PFAS compounds. That was one of the 
commitments at the National Leadership Summit and our goal is 
to have that National Management Plan completed by the end of 
this calendar year. So we are working diligently on that right 
now, we expect that National Management Plan will include this 
consideration of the hazardous substance list.
    Mr. Tonko. So that is in less than 4 months.
    Mr. Grevatt. Yes, sir.
    Mr. Tonko. If this determination is made, how will it help 
states and localities address contamination issues and hold 
responsible parties accountable for remediation?
    Mr. Grevatt. Right, thank you. So the critical issue that 
the hazardous substance listing will allow under CERCLA is for 
EPA to order cleanup actions and if EPA has to expend funds 
from the Superfund for the purpose of cleaning up sites EPA 
will be able to recover costs that are expended. So this will 
give very important tools for states and local communities to 
address these PFAS challenges at contaminated sites.
    Mr. Tonko. Right. And what is the timeline for that 
decision?
    Mr. Grevatt. Right. So as I noted, we expect that this 
issue will be addressed in the National Management Plan and our 
goal is to have that completed by the end of this calendar 
year.
    Mr. Tonko. OK. And if you listen to today's second panel, I 
am certain you will hear from states' public health advocates 
and concerned citizens that there is a widespread problem that 
needs a national framework and federal funding to support 
state, local, and individual responses. At this point there can 
be no doubt about the severity of the problem. You cannot hold 
a national summit and a public meeting tour without 
acknowledging this.
    So the gravity of the situation should be apparent by 
today's hearing, we are not holding hearings on other CCL or 
contaminants. So with all that in mind, will EPA commit to 
including PFOA and PFOS as part of Regulatory Determination 4?
    Mr. Grevatt. So a couple of important points on your 
question and thank you, Ranking Member Tonko, for that 
question. So the Regulatory Determination Number 4 is, the 
schedule for that is 2021 when that is due. EPA is currently 
looking at this issue of the Regulatory Determination for PFOA 
and PFOS as we speak. We expect that decision will be made long 
before 2021 and we will be addressing this issue as well in the 
context of the National Management Plan that will be completed 
by the end of this year.
    Mr. Tonko. So can we commit to that then or, obviously 
there is a sense of urgency here.
    Mr. Grevatt. Yes, absolutely. So we certainly can commit to 
look carefully at this issue in terms of how the agency will 
approach the Regulatory Determination. I don't have an answer 
yet as to whether and how EPA will include PFOA and PFOS in the 
Regulatory Determination. That is an issue that as the Safe 
Drinking Water Act states is in the sole judgment of the 
administrator, and Acting Administrator Wheeler is looking at 
this issue right now as we speak.
    Mr. Tonko. OK. Well, we have seen some walking away from 
commitments to the environment. So if you are going to make 
this extensive effort to explore potential regulatory actions, 
in the end EPA must be willing to say one way or another if 
these contaminants need a national standard. There can be no 
more kicking the can down the road, so I would hope that we 
would get that sort of commitment.
    Mr. Grevatt. Yes, sir.
    Mr. Tonko. With that Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the vice chairman of this subcommittee, Mr. 
McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. Certainly we have 
had, in West Virginia we have had some exposure to the PFOA and 
PFOS. We went through it a couple of years ago and we saw the 
concerns that people had, the population in one of the 
communities. Vienna, West Virginia wound up, with about 10,000 
people it cost them $6 million to address this problem and 
annually now it is going to be about a $200,000 cost that they 
are going to have to incur.
    We all want clean water. I am a hundred percent behind that 
on this, where we need to go on this. I am just, I am a little 
bit curious. Often we have an independent verification and 
validation process in software. Are we going to have anyone 
review the--as we drop down from, remember, it went from 400 
down to 70, now we may be talking about going down to 10. That 
is all wonderful. Is there going to be another validation of 
that to see that as we keep ratcheting down, will there be an 
independent verification, a second opinion so to speak that 
that is the right thing to do?
    Mr. Grevatt. Without question, Congressman, if we were to 
make a change from the current drinking water health advisory 
of 70 parts per trillion for PFOA and PFOS combined, we would 
subject that, the scientific basis for that to independent peer 
review before we were to take such an action.
    Mr. McKinley. Thank you. I think that is going to be 
overall well, because I am concerned we had 63 sites around the 
country 2 years ago. This was a very interesting report. Did 
you help author that 2 years ago?
    Mr. Grevatt. Yes, sir.
    Mr. McKinley. About 103 pages long, as an engineer it was 
enjoyable reading but it also told how the points we have to 
raise on these matters. So now we had 63 communities that are 
affected with this back then. If we were to go down to 10, 15 
do you have any idea how many communities across the country 
could be impacted with that?
     Mr. Grevatt. Thank you, sir. It is difficult to conjecture 
on the exact number. What I can say is in terms of UCMR process 
that that process covered, it was a census of all the large 
drinking water systems, larger than 10,000 people served, and a 
representative sample of systems smaller than 10,000. As you 
noted, we found 63 of those systems had levels above the 
drinking water health advisory of PFOA and PFOS of 70 parts per 
trillion. That sample covered 80 percent of the United States 
population that is served by community water systems and so we 
consider it a very comprehensive effort.
    Mr. McKinley. Well, what kind of numbers are we talking? 
Could we have if we were to drop to 10, which again in an ideal 
world that would be wonderful. As an engineer, all of us want 
to have the purest water we can. But to get down to 10, is that 
going to affect perhaps 300 communities, 3,000 communities to 
get down to 10?
    Mr. Grevatt. I think it is very difficult to guess. What we 
can say for certain is it will be more than 63 and we know as a 
result of----
    Mr. McKinley. So as a result I know the timeframe on this 
is that we, at least in West Virginia we had a company that was 
on the hook to pay for this, but there are going to be some 
communities that the companies are long gone and how are they 
going to do this, so I don't know whether from the military or 
the communities.
    We have trouble right now with brownfield sites that we 
have 480,000 brownfield or contaminated sites across America 
but we only clean up about a thousand or less during a years' 
time. I want to see this thing done, but I have got to find out 
how to push the urgency that this is our number one priority in 
addressing water on that.
    Would you say that of all--I want to, careful now on this. 
Of all the water contaminants that we face--bleach, salts, 
nitrates--is PFOA, is that the number one contaminant?
    Mr. Grevatt. I think it is very important to look at this--
--
    Mr. McKinley. Is it the number one? Is that the one, 
because we can chase a lot of rabbits here. I want to make sure 
that we are chasing the right rabbit, the one that is causing 
the greatest harm to the American public I want to see us focus 
on that. Not one that just pops up over here and that--I won't 
give you an analogy. Is this the number one health risk in 
water today in America, PFOA?
    Mr. Grevatt. Thank you, Congressman. In communities where 
PFAS compounds have impacted drinking water supplies they are 
presenting significant challenges. Nationally, I would say no, 
this is not the number one challenge that we face. I think 
there are important issues around the basics of water 
treatment, especially around areas, things like disinfection 
and disinfectant byproducts in systems. It is very important to 
make sure that we also focus holistically on the full spectrum 
of challenges that face our nation's drinking water systems.
    Mr. McKinley. Thank you and I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the ranking member of the full committee, 
Congressman Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    My home State of New Jersey has been studying PFAS 
contamination in drinking water since 2006, following reports 
of contamination from a DuPont facility, and monitoring by the 
State and by EPA has shown widespread contamination across New 
Jersey. In 2017, New Jersey set an MCL for PFOA at 14 parts per 
trillion and another MCL for PFNA at 13 parts per trillion.
    And those standards were a triumph for science and 
advocates in New Jersey who worked for years to overcome 
political opposition and this standard has been important to 
communities across the State and ensures that drinking water is 
being treated to remove those chemicals. But I have heard 
serious concerns that the Department of Defense is not cleaning 
up contaminated sites in New Jersey to that state standard.
    So, Ms. Sullivan, the Department of Defense has conducted 
testing at and around some military facilities in New Jersey. 
According to the presentation you made to Congress in March, 
drinking water contamination has been found around Naval 
Weapons Station Earle, which is in my district, and Joint Base 
McGuire-Dix-Lakehurst.
    Groundwater contamination has also been found around the 
former Naval Air Warfare Center in Trenton with levels as high 
as 22,800 parts per trillion detected. According to your March 
report, the contamination at former Naval Air Warfare Center in 
Trenton will be handled through a continued Superfund process.
    So my questions are, will that cleanup in Trenton meet the 
New Jersey standards of 14 and 13 parts per trillion and will 
you commit to me that DOD will meet those standards for 
cleanups in my state?
    Ms. Sullivan. Thank you, Congressman, for the question. I 
appreciate that you have read our detailed report from earlier 
this year. The Department of Defense as we are required to by 
CERCLA in the Defense Environmental Restoration Program statute 
is following the CERCLA process. And as part of that process 
the state levels are rolled in through the risk assessment 
process.
    So as we go through our analysis following the structure of 
it, these state standards will in fact be rolled in as a 
consideration as an appropriate and relevant regulation. At the 
end of that risk assessment process there will be a 
determination of unacceptable risk that will be reviewed not 
only by us, but by the state, your state environmental agency 
and the Environmental Protection Agency to determine what the 
end remedy solution will be.
    Mr. Pallone. But my concern, as you can imagine, is that 
because I am very familiar with the Superfund process is 
oftentimes DOD or even EPA do not necessarily recommend a more 
strict standard. They look at it as a factor and you are saying 
they will, which I appreciate, but they may not adopt the 
standard.
    They may not insist on that as the remediation alternative 
that they pick. And the fact that DOD is not bound by these 
state drinking water standards, to me, shows how important a 
national drinking water standard is because it may very well be 
that those state standards are not met. Obviously I would urge 
you to meet them, but you are not going to guarantee that they 
would be because you are just saying it will be considered.
    Ms. Sullivan. Yes, sir. They will be considered as part of 
the CERCLA process which we are bound to.
    Mr. Pallone. Yes. Well, I think that is unfortunate. I 
think you should be bound by them, and even if you are not that 
you should adopt them. But I appreciate your candor.
    Now, Ms. Sullivan, what chemicals is the Department of 
Defense using in place of PFOA and other PFAS? Has the 
Department conducted studies of those chemicals to establish 
their safety?
    Ms. Sullivan. Thank you again, sir, for that question. We 
are in the process of investing a significant amount of 
research and development to first demonstrate the commercially 
available substances to see--that are PFOA-free--if they meet 
our strict standards in order to fight fires. We are also 
investing research and development dollars to sponsor 
development of a fluorine-free foam that also meets.
    And as I stated, while we continue to do that we are 
working with the current manufacturers to fully understand how 
much PFOA is in the products that they are providing to us and 
controlling the releases of those.
    Mr. Pallone. All right. I am just going to run out of time. 
I just was going to ask you if you could provide the committee, 
through the chairman, with any and all studies that the 
Department of Defense has regarding the safety of these 
substitute chemicals if you would.
    Ms. Sullivan. Certainly we can.
    Mr. Pallone. And, Mr. Chairman, I know my time is running 
out, but I know you were so much involved with TSCA and I just 
wanted to say that the concern over substitutes is not limited 
to PFAS and was central to our efforts to reform TSCA as you 
know. And unfortunately EPA's implementation of TSCA has fallen 
short of our hopes and so I was hoping that we have an 
opportunity for a hearing on TSCA implementation. I will make 
that request again, Mr. Chairman.
    Mr. Shimkus. I would thank the chairman. I think that is 
going to be doable. We will try to figure out a time. I think 
both sides are kind of frustrated with the process and my 
frustration is a surprise in some of the areas and I think it 
has been flipped on both issues. So I think we will do our best 
to try to find some time to do that. As one of our signature 
legislative accomplishments, we would hate to see it bogged 
down in implementation.
    Mr. Pallone. Thank you.
    Mr. Shimkus. Having that the gentleman returns his time, 
the chair now recognizes the gentleman from Ohio if he is 
ready, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate you 
holding this very important hearing. You know, many people 
throughout the country are very familiar with the issues we are 
discussing today. And along the Ohio River, along with other 
states along the river we are no exception to that. It is vital 
that we continue to develop a complete understanding of how 
chemicals in high concentrations like PFOA impact populations 
and how best to take any actions necessary.
    I know many studies including some prominent ones within 
Ohio such as the University of Cincinnati have been conducted 
on this issue and I hope to see those studies continue. I also 
know that the EPA is working on these issues as Dr. Grevatt has 
indicated in his testimony.
    So, Dr. Grevatt, you have worked with Ohio on many 
occasions on water contamination issues and we appreciate that. 
How can Ohio continue to best engage with the EPA on these 
issues?
    Mr. Grevatt. Thank you, Congressman, and appreciate your 
noting my work with Director Butler and others from Ohio EPA, 
my home State, so I have a great connection with folks there.
    We are working very closely with all the states on the 
activities that we have underway. We will continue to stay very 
close to the State of Ohio and other states on issues like the 
development of toxicity factors for PFBS and GenX on these 
questions about development of the decision on a hazardous 
substance listing and potentially on an MCL, so as well as the 
groundwater cleanup goals. These are all issues that we are 
working very closely with the State of Ohio and other states 
on. We will commit to continuing that connection with the 
states.
    Mr. Johnson. OK. And are you working with them on any of 
the DOD facilities as well?
    Mr. Grevatt. Yes, sir.
    Mr. Johnson. OK.
    Mr. Grevatt. So yes, as Ohio and other states request 
support from EPA we are for certain going to be there to assist 
them with these challenges.
    Mr. Johnson. OK. I understand the local government advisory 
committee is soliciting input. How can people along the river 
along my district best engage in this process and what can 
Congress do to help?
    Mr. Grevatt. Thank you very much. So one of the things that 
citizens across the U.S. can do right now is we have opened the 
docket in addition to the community engagement sessions which I 
referred to that we have had now in five different states. We 
opened the docket so anyone in the U.S. who wants to submit 
their perspectives to us can do so right now. That way we have 
about 80,000 comments that we have received thus far.
    We will hold that docket open until right about the end of 
this month. And then if there are specific issues that you have 
that you would like to follow up on, we would be happy to 
circle back with you and your staff to discuss those.
    Mr. Johnson. OK, thank you.
    Ms. Sullivan, same question for you. We have a significant 
Defense Department footprint in Ohio--Wright-Patterson, 
Mansfield, Youngstown Air Reserve Base, et cetera. Is there 
anything that we can do to more closely engage with the DOD on 
some of these issues?
    Ms. Sullivan. Thank you, Congressman. I know that Wright-
Patterson has, well, Wright-Patterson has a restoration 
advisory board which is community based so to try and engage 
the local community and be transparent in what is going on, on 
the base, and I encourage the local communities to engage in 
that. The Air Force has been very transparent in their process 
having established websites and public meetings and I encourage 
the community to get engaged in those processes.
    Mr. Johnson. And, Ms. Sullivan, your written testimony 
discusses the remediation of PFOS and PFOA and you note that 
DOD is addressing known or suspected releases of these 
chemicals to determine whether there is exposure through 
drinking water. Is DOD only looking at drinking water exposure 
and what about releases to soil sediment and groundwater?
    Ms. Sullivan. Thank you, I appreciate the opportunity to 
answer that question. The exposure through drinking water was 
our first priority so we wanted to make sure that we fully 
understand if anybody, humans were being exposed and to cut 
that off. Then we are going through the standard process to 
look at all of the potential exposure pathways including soil 
and groundwater. But we are taking a more deliberative approach 
because our first priority was to cut off human exposure.
    Mr. Johnson. OK. Just real quickly back to you, Dr. 
Grevatt. You mentioned EPA is working on response actions with 
other agencies such as HHS. Can you explain your work 
partnership with HHS including what agencies at HHS and what 
collaboration has occurred and what we can expect moving 
forward?
    Mr. Grevatt. For certain. Thank you, Congressman. So as I 
noted we are working very closely with HHS on a number of the 
actions which we identified. Those include the development of 
the toxicity values of PFBS and GenX. We are working, really, 
with all the different parts of HHS including the assistant 
secretary's office, Assistant Secretary for Health, right down 
through FDA, NIEHS, ATSDR, CDC, every part of HHS has been 
involved to participate in this effort. And we will continue to 
work side by side with them on these issues.
    Mr. Johnson. OK. Well, thank you both for your testimony.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman, you and the ranking 
member, for holding this hearing. Per or polyfluoroalkyl 
substances, or PFAS, has been around for many years and has 
found a wide variety of uses in consumer products from our 
cookware to stain repellents to fire retardants. Due to the 
widespread use, most people have some exposure to PFAS. While 
scientific data shows minimal amounts of exposure do not pose 
substantial risk, higher levels of exposure could lead to a 
wide array of adverse health effects. I would like to thank our 
witnesses for being here today to testify and look forward to 
your opinion.
    Dr. Grevatt, in 2016, EPA revised its nonbinding lifetime 
health advisory level for PFAS down from 400 parts per trillion 
to 70 parts per trillion. What was the impact of this decision?
    Mr. Grevatt. Thank you, Congressman, a very important step 
in terms of having a final lifetime health advisory. We 
provided this to the states and members of the public in terms 
of not only the value of the health advisory but steps that 
communities could take to address concerns with PFAS. And this 
health advisory came out as we were completing the UCMR 
process, the national monitoring study that I mentioned, and so 
together they were able to help to identify communities that 
may have concerns related to PFAS in their drinking water 
supply. So it was a very important step.
    Mr. Green. What does it take to go from a nonbinding to 
binding?
    Mr. Grevatt. That would be, and as you noted, sir, the 
drinking water health advisories are really guidance values. 
They are not requirements. It would take us a national drinking 
water regulation, an MCL for PFAS compounds to create a binding 
requirement in terms of meeting those levels.
    Mr. Green. Well, I have a very urban district in Houston, a 
chemical industry, refinery industry, but in Texas like Ohio we 
have a number of military bases. In fact, Fort Hood is probably 
the biggest base in the world. We have air bases. Has there 
been a partnership with the bases in Texas as you said that in 
Ohio?
    Mr. Grevatt. Yes, sir. We are working closely with DOD on 
these issues all across the country. And perhaps Ms. Sullivan 
would like to respond.
    Ms. Sullivan. Thank you, sir. The bases in Texas are 
subject to the same processes that we have established across 
the Nation. They had to go and look where they had known and 
suspected releases and if there were any they had to determine 
if there was exposure through drinking water and address that. 
I can provide you detailed information if you would like on the 
bases in Texas.
    Mr. Green. I would appreciate that so I can share it with 
my other colleagues in Texas. Does EPA currently have the 
technical expertise to set MCL that protects public health?
    Mr. Grevatt. Yes, sir. I believe we do.
    Mr. Green. How do you reconcile that the Agency for Toxic 
Substances and Disease Registry released a draft study of the 
public health risk of PFAS that showed maximum safe levels of 
chemicals are seven to ten times less than the health advisory 
set by EPA? Is EPA ignoring this mission or how do you 
reconcile that between the Disease Registry?
    Mr. Grevatt. Thank you, Congressman. So I would say a 
couple of things about that. The first is that the purpose of 
the document that ATSDR developed is different from our 
drinking water health advisory. They used these toxicity 
profiles as screening values for sites and then also they chose 
to view the science somewhat differently than we did. We are 
working very closely with them on these issues to make sure 
that we are sharing the best information we have as we go 
forward.
    Mr. Green. Well, obviously there is some concern because, 
we know what happened in Flint, which was not that issue, but 
what former Chairman Upton talked about in his area and again 
in an industrial area we could have the same thing.
    Given the action that is seen at the state level to set 
maximum containment levels, or MCL, what is EPA's expected 
timeline for setting federal MCL for PFAS under the Safe 
Drinking Water Act?
    Mr. Grevatt. Thank you, Congressman. So this is one of the 
key actions that we identified earlier this year that we were 
going to be exploring throughout the year. We expect this to be 
included in the National Management Plan and we hope to have 
that completed by the end of this calendar year.
    Mr. Green. OK. Well, I would hope EPA would quickly move 
and address the issue in a competent manner relying on the 
solid peer reviews data and allowing public input throughout 
the process. And like I said, I don't think any member on the 
dais would not be willing to partner in our communities if that 
was the issue.
    I will yield back my time, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back the time. The chair 
now recognizes the gentleman from Texas, Mr. Flores, who with 
my apologies for skipping you, you are recognized for 5 
minutes.
    Mr. Flores. That is OK. You just let the other gentleman 
from Texas ask my question. But I would like to thank you, Mr. 
Chairman.
    Dr. Grevatt, a couple of questions for you really quickly. 
Continuing Mr. Green's line of questioning, did the EPA learn 
anything from the ATSDR report that was dramatically different 
from what it had developed internally with respect to maximum 
levels?
    Mr. Grevatt. Thank you, Congressman. So as I noted, we have 
worked closely with ATSDR on the communication of their report 
and in the development of their report. We provided comments to 
them and have worked throughout this process. I think one of 
the things that we have learned and perhaps these reports 
reinforce is the importance of focusing on risk communication 
with the public so we don't lead people to a place where they 
are confused about what do these different values mean.
    And as I noted, they have different purposes, the toxicity 
profile from our health advisory, but that has been a really 
important message. Also throughout the national engagement that 
we have done risk communication is something we need to 
continue to focus and try and advance.
     Mr. Flores. Let's go ahead and move to the communications 
question. Mr. Upton brought this up during his opening 
testimony. Would you say that the current communication efforts 
with respect to PFAS are effective?
    Mr. Grevatt. I think, sir, that we always can improve and 
we need to focus on continuing to improve on our risk 
communication and this is a top priority for Acting 
Administrator Wheeler.
    Mr. Flores. So what improvements would be needed? What are 
your initial thoughts as far as improvements that could be put 
in place?
    Mr. Grevatt. I think it is important for us to continue to 
work toward characterizing the context for these values, what 
they mean, what does 70 parts per trillion mean and what are 
the implications for a community that may have a level above 70 
parts per trillion. I think it is natural that folks will 
become very concerned when they see levels approaching that. 
And we think it is important to focus on PFAS. We think it is 
important to focus at the local level on awareness of these 
compounds and taking steps to address them. But we want to try 
to continue to share this information in a way that doesn't 
create a great deal of anxiety and fear on the part of the 
public. I think that is a place where we can make further 
progress.
    Mr. Flores. Let's drill into the 70 parts per trillion 
metric for a minute. Does today's technology readily measure 
concentrations of this contaminant at that level?
    Mr. Grevatt. Yes, sir.
    Mr. Flores. It does, OK. Thank you. I yield back the 
balance of my time.
    Mr. Hudson [presiding]. The gentleman yields back. The 
chair recognizes the gentleman from California, Mr. McNerney.
    Mr. McNerney. Well, I thank the chair. While I appreciate 
that the EPA is hearing from the public and engaging with 
communities impacted by PFAS, recent actions by the EPA have 
undermined public confidence and my confidence in the Agency's 
ability to address human health risks posed by these toxic 
chemicals.
    In April of this year, the EPA proposed a rulemaking 
titled, ``Strengthening Transparency in Regulatory Science.'' 
Now, this was modeled after the secret science legislation 
drafted by the House Republicans. The proposal could require 
the EPA to ignore important scientific studies of human health 
effects because the data included private medical information.
    Dr. Grevatt, was the Office of Water consulted before the 
rulemaking was proposed?
    Mr. Grevatt. Thank you, Congressman. This rulemaking is an 
Agency rulemaking and so all parts of the Agency are engaged on 
this. It is being led from the Office of Research and 
Development but we are connected in this effort.
    Mr. McNerney. OK. Did your office assess how the proposal 
would impact your ability to address PFAS contaminations?
    Mr. Grevatt. Sir, while the proposal has received many, 
many comments as I think you are aware and the Agency is in the 
process of considering the comments as they move towards 
development of a final rule, and I think it is difficult to 
conjecture at this stage what those impacts might be.
    Mr. McNerney. Well, in June of this year I joined Ranking 
Member Pallone and Ranking Member Tonko in sending a letter to 
the Agency requesting additional information on the issue, 2 
months later the Agency responded to me personally. I would 
like to submit my letter and the Agency's response to the 
committee for the record.
    Mr. Hudson. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. McNerney. Thank you. Mr. Grevatt, are you aware of this 
letter?
    Mr. Grevatt. I am aware that we have received the letter. I 
personally have not been engaged specifically on this issue in 
the response to that letter.
    Mr. McNerney. OK. Well, the letter requests that the EPA 
provide us with copies of all comments or feedback from the EPA 
staff on the Agency's proposed Strengthening Transparency in 
Regulatory Science rulemaking, including but not limited to 
members from the rulemaking's Action Development Working Group. 
There were other requests as well as this.
    This information is important so that we can better 
understanding what, if any, concerns were raised on how the 
proposed regulation would impact its ability to address human 
health risks associated with PFAS. Again it took the Agency 2 
months to respond, but they haven't, the Agency hasn't produced 
the documents that were requested in the letter.
    Would you commit to providing those documents for the 
record?
    Mr. Grevatt. Sir, I will certainly commit to working with 
our congressional staff to follow up with you and your office 
to make sure that we are having the conversations that you are 
wanting to have on this.
    Mr. McNerney. OK. I did mention earlier that the public has 
lost confidence. What do you think that you personally can do 
to help restore that confidence?
    Mr. Grevatt. Sir, I appreciate your question and I would 
turn back on this PFAS issue to the national engagement that we 
are involved in. And through this process I personally have had 
the opportunity to meet with hundreds of impacted citizens 
across multiple states. I have heard statements from over 120 
individuals talking about their challenges and we are taking 
this back and folding this into the National Management Plan.
    I think it is very important for the public to be able to 
see how their comments to us are reflected and the steps we are 
taking and that is really what we are committed to here through 
this national engagement. I think it has been a very important 
step, a very valuable step for us as we are addressing this 
issue.
    Mr. McNerney. Do you agree with the provision that would 
exclude information because it is from private medical 
information?
    Mr. Grevatt. So this issue is under careful consideration 
by the Agency and we are thinking through the public comments 
that we have received on the transparency rule and that process 
continues.
    Mr. McNerney. All right. Thank you, Mr. Chairman. I yield 
back.
    Mr. Hudson. The gentleman yields back. At this time the 
chair will recognize himself for 5 minutes for questioning.
    Dr. Grevatt, Administrator Pruitt has been here a number of 
times and I have questioned him each time about this PFAS 
issue, about GenX in particular and the need to develop a 
comprehensive plan for containment and removal. The Agency 
responded in April to a letter I followed up with on that, 
those two testimonies, saying that a key priority for the EPA 
is to further the understanding of human health impacts of PFAS 
to support states and local communities.
    The EPA is currently developing a human health toxicity 
information for GenX that will provide a scientific basis for 
states and communities to set that will refine public health 
goals. So I want to ask you a few questions about that and we 
only have 5 minutes so I would just ask you to be as concise as 
you can. Could you provide a timeline for when the toxicity 
value for GenX will be released?
    Mr. Grevatt. Yes, sir. We are very close to this now. We 
expect in the coming weeks to have that available, in draft, 
for public review and comment.
    Mr. Hudson. OK, thank you for that. Once this toxicity 
value of GenX is released, can you commit to releasing a public 
health advisory specifically for GenX?
    Mr. Grevatt. So thank you, Congressman. We will work 
closely with the states to determine what will be most helpful 
to them. And, for example, on GenX specifically with regard to 
North Carolina, we are working side by side with them and want 
to make sure that we are providing them the support they need.
    And, sir, I might just add that we appreciate your 
invitation to come to Fayetteville. We appreciate your 
participation in that event and that in particular along with 
the others we found to be tremendously valuable. So thank you 
very much for your leadership on that.
    Mr. Hudson. Thank you. I would just stress that I think the 
public health advisory is really the next step in the process 
once we get those toxicity numbers to really help the state 
understand what we need to do going forward. So I appreciate 
you working so closely with the state.
    Based on my past discussions with EPA officials, I 
understand EPA is working very closely with the state and I get 
that feedback from the state. Are you aware of any outstanding 
questions or information that EPA still owes the state of North 
Carolina?
    Mr. Grevatt. I think there are ongoing conversations with 
the State of North Carolina addressing all kinds of issues 
including stack testing at the Chemours facility, sampling the 
Cape Fear watershed and so I think those discussions are 
ongoing. So I am reluctant to say there is nothing outstanding 
because there is a lot that is going on and we will remain 
committed to supporting the state throughout this process.
    Mr. Hudson. I appreciate that. Now my understanding is 
there are over 20 other chemicals besides GenX who were found 
in the Cape Fear Basin. Is that part of this ongoing discussion 
is looking at those chemicals as well?
    Mr. Grevatt. Yes, sir.
    Mr. Hudson. Can we expect to have those results this month 
as well in the draft form or is that going to be later?
    Mr. Grevatt. So those results if you could, I want to make 
sure I understand specifically your question. So we are going 
to have the GenX toxicity assessment in the coming weeks 
available and then we will have the National Management Plan. 
Our goal is to have that completed by the end of the calendar 
year. That will be a comprehensive view across EPA's actions in 
conjunction with the State to address these issues.
    Mr. Hudson. Great. Again I appreciate you accepting our 
invitation to come to Fayetteville for the community 
engagement, but I understand you are doing those around the 
country in other communities. Can you provide us just a few 
brief takeaways from our community engagement summit?
    Mr. Grevatt. Yes, sir. Thank you. So as I mentioned, in the 
case of Fayetteville I heard from over 50 citizens about the 
concerns they face and the concerns are very significant and 
they range from concerns about protecting families, their 
children, to economic impacts of the decisions.
    We heard from folks in Wilmington as well who came up and 
talked about the economic impact on the very important work 
that the drinking water utility is doing to put in drinking 
water treatment and concerns about they are going to pay for 
these actions. And so extensive concerns addressed and we will 
remain committed to working closely with the community in 
Fayetteville, the State of North Carolina, community of 
Wilmington, on addressing those issues going forward.
    Mr. Hudson. We appreciate that very much. Is there any 
information you learned that you think helped move you forward 
in terms of examining the chemical?
    Mr. Grevatt. I think again reiterating the point on risk 
communication in the case of North Carolina because they 
themselves have been working towards a health value on GenX. We 
heard from them very clearly how important it is to be closely 
coordinated and we are working side by side with them in every 
step of this process.
    Mr. Hudson. I appreciate that. One other issue I am trying 
to wrap my brain around maybe you can help me with is, in your 
opinion, what is the lowest allowable and scientifically 
reliable level at which PFAS can be detected and monitored?
    Mr. Grevatt. Right. So in terms of the reliable level where 
it can be detected, I think we are down into the single digits 
of parts per trillion that can be monitored. And in part that 
is a result of the national study that we did to build lab 
capacity across the country, so this continues to advance. But 
I think we are in the single digits of parts per trillion for 
these compounds.
    Mr. Hudson. Great, thank you for that and my time is 
expired. At this time I will recognize the gentlelady from 
Michigan, Mrs. Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman. I think you can tell 
that Republicans and Democrats are pretty unified here on the 
concern about the PFAS chemicals.
    And I want to build, the Flint water crisis is something 
that every member on this dais has in their head and every 
American across the country is worried about. And PFAS in 
Michigan is scaring people more than the Flint water did, but I 
also think that it is across the country as you have heard from 
my colleagues here.
    I have several points I want to make, but I will build 
right on the last questions first. And I am very glad that you 
went to Fayetteville. North Carolina wanted to see you, but so 
did Michigan and Michigan had originally been scheduled to be 
one of those community forums. People wanted you from one side 
of the State to the other and you didn't come. Why did you 
cancel Michigan and could we get you to still come?
    Mr. Grevatt. Right. So we have been working very closely 
with Michigan and all the States in determining the locations 
for these events, and if in fact Michigan now wants us to do an 
event in the sState we will be glad to talk with you and talk 
with them about how we might do some kind of an event.
    Mrs. Dingell. This is a formal invitation on behalf of a 
whole lot of people. I know Fred joins me on the other side, 
don't you, Fred?
    Mr. Upton. Unanimous, yes.
    Mrs. Dingell. So you have an Upton Walberg Dingell 
invitation for a community forum in Michigan and we take that 
you have accepted it. And I think our czarina would support it 
too.
    Mr. Grevatt. So we will be very glad to follow up with all 
of you and your staffs about this as well as with the State. 
And as I mentioned, we have been working closely with Michigan 
and if they in fact now have decided they want us to come then 
we will be glad to come.
    Mrs. Dingell. I know a lot of people have. I was asked by 
many people to raise that.
    I want to go back again, and I know we all keep asking the 
same question. But I think what has really got everybody 
worried is we need to change the national standard for what is 
a safe level and you are telling us that you are going to, I 
think you are telling us. You are not saying you are going to 
determine whether we need it. I hope that you are saying that 
we do need to revise the standard.
    You are going to put out a National Management Plan by the 
end of the year. What is going to be in that plan? Are you 
going to give us what the new standard should be and how long 
is that going to take? How do we create that sense of urgency 
that cuts through bureaucracy and keeps Americans safe drinking 
their water?
    Mr. Grevatt. Thank you very much for those questions. So a 
couple of things I want to respond with, first, to be clear, we 
have a guidance value now not a regulatory standard and one of 
the key items we are committed to at EPA by the end of the year 
in the Management Plan is to consider whether we should be 
developing an MCL for PFOA and PFOS or other compounds. So we 
are still engaged in that process.
    If we were to, in the context of a drinking water health 
advisory, think about lowering that level, we would subject 
that to scientific peer review before we took that kind of a 
step. So we are working through these issues now. We expect 
these to be addressed in the National Management Plan and our 
goal is to have that done by the end of the calendar year.
    Mrs. Dingell. So I am going to push on that a little. So 
are you telling us you are still--I think that all of us on 
this dais have seen enough in scientific studies that we have 
got a problem. I think the children in Flint that got poisoned 
wish somebody had cared enough. So are we talking about another 
2-, 3-, 4-, or 5-year bureaucracy or are we looking at 
something that is really going to get at this quickly to keep 
the American people drinking safe water?
    Mr. Grevatt. I thank you. And making sure Americans' 
drinking water is safe is a top priority for EPA and we will 
continue to focus on this issue.
    You asked about the National Management Plan. This will be 
a comprehensive view not only in the drinking water area, but 
across all of our statutory authorities about steps that we can 
take now to make sure that we are protecting Americans in their 
communities. And so that will be the focus of the National 
Management Plan and the goal is as I noted to have that done by 
the end of the calendar year.
    Mrs. Dingell. I have more questions for you but I don't 
want Ms. Sullivan to feel lonely. So we have got five sites in 
Michigan that are sites that have been contaminated because of 
military presence. What is DOD doing to help us clean up in 
Michigan?
    Ms. Sullivan. Well, thank you, ma'am, for asking. At all of 
those sites we have gone out and identified where we have known 
and suspected releases. We have tested many drinking water 
sources. Every drinking water source that has tested above the 
EPA's advisory level----
    Mrs. Dingell. Five of them.
    Ms. Sullivan [continuing]. We have worked with the 
communities to provide those citizens, because some of them are 
private wells as you can appreciate, alternative drinking water 
sources. It is up to them which of these options are available. 
Then we are embarking on the entire CERCLA process to really 
fully analyze the situation. What are the sources, what are the 
pathways, and working with the State and EPA on what the remedy 
solution would be in strong partnership.
    Mrs. Dingell. Obviously there are a lot more questions but 
I am out of time.
    Mr. Shimkus. The gentlelady's time is expired.
    Just for our information we have Navy bases, Air Force 
bases, Coast Guard bases, and Army posts. So just in 
definitionary terms as an Army guy we have posts. The chair 
recognizes the gentleman from Michigan, Mr. Walberg, for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you to the 
panel for being here. It was good to have Administrator Wheeler 
in Michigan in my district on the banks of Lake Erie and other 
places and it was good to be able to talk to him about this 
PFAS/PFOS issue and to understand very clearly that it is being 
taken seriously and that there is, and I want to follow up on 
my friend and colleague from Michigan as well. It is good to 
know that you are willing to come, but it is also good to know 
that you remain in contact with our state as well on this issue 
on a regular basis.
    Mr. Grevatt, you mentioned you are working with States like 
Michigan and North Carolina. What do you think are the things 
of greatest value that you could offer them at this time?
    Mr. Grevatt. Thank you very much, Congressman. So a number 
of the things that the States have communicated to us that they 
really need help on include assistance with risk communication 
in talking to the impacted public in their States about these 
issues, support with analytical methods, development of 
additional tools to sample for these compounds in the 
environment, the toxicity values are also important, and then 
consideration of treatment techniques that are available. And, 
in fact, all of those things are things that we are currently 
working on with the states to support them in addressing these 
challenges.
    And so we are staying very close to the states and focused 
on what tools we can provide to help them to address these 
challenges and how do we best address these challenges and how 
do we best support local communities.
    Mr. Walberg. With these challenges if the states struggle 
in some of these areas like Michigan, North Carolina, other 
States, if they struggle where do they struggle the most?
    Mr. Grevatt. I think there have been challenges certainly 
around technical questions, around sampling and analysis of 
compounds. Those are issues that we have talked about 
extensively with Ms. Grether in the State of Michigan. With 
questions around characterizing levels of these compounds in 
the environment and how to do so, those are issues that we 
worked on very closely with the State of North Carolina.
    And toxicity as well, there are questions around the broad 
set of compounds, PFAS compounds, where we talk a lot about 
PFOA and PFOS, but there are many other compounds that we need 
to stay focused on. And I think those are issues that have been 
a concern to States as well.
    Mr. Walberg. OK. Section 1453 and 1454 of the Safe Drinking 
Water Act create a framework for States to do source water 
planning and voluntary response efforts. H.R. 3387, the 
Drinking Water System Improvement Act, the bill our committee, 
thankfully, unanimously supported, would allow new and updated 
States' source water plans to qualify for assistance. Would 
these source water plans permit States to address PFAS 
contamination?
    Mr. Grevatt. Yes, sir. I think they would help to address 
PFAS contamination. And it has been very important the work 
that Ms. Sullivan has talked about at DOD. We see that many of 
the instances of drinking water contamination are related to 
known sources. Those might be DOD facilities, but there are 
certainly many others as Ms. Sullivan indicated. And I think 
the source water protection focus can really help local 
communities to understand their vulnerabilities for PFAS and 
other compounds.
    Mr. Walberg. OK. Would these plans and responses also be 
eligible from the resources of a State SRF under Section 
1452(k)?
    Mr. Grevatt. And certainly in particular through the set-
asides and the technical assistance these are activities that 
can be covered in that area, yes.
    Mr. Walberg. In your response to the chairman you mentioned 
that DWSRF funding could be used for PFAS. Could it be used for 
other emerging contaminants as well?
    Mr. Grevatt. Yes, sir.
    Mr. Walberg. Do you know how many States are already doing 
this?
    Mr. Grevatt. I think a number of States are providing 
support to drinking water systems in their State, particularly 
through the set-asides, the technical assistance and I think 
that is going to continue to be a focus. But there are broad 
opportunities through the drinking water SRF to support both 
infrastructure investments and also to support technical 
assistance and operator certification and strengthening in 
terms of the capacity of drinking water systems. So there are 
broad eligibilities that are provided through that tool.
    Mr. Walberg. OK, thank you and I appreciate your responses. 
I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
recognizes the gentleman from California, Mr. Peters, for 5 
minutes.
    Mr. Peters. Thank you, Mr. Chairman, and thanks to the 
witnesses for being here. I had two questions, one for Mr. 
Grevatt. Dr. Grevatt, studies tracking PFOS in marine organisms 
and ocean waters, PFOS was added to the Stockholm Convention on 
Persistent Organic Pollutants in 2009, and we are not party to 
that Convention but is EPA doing anything to monitor coastal 
waters for these compounds and are you working with other 
countries to control the spread of these contaminants?
    Mr. Grevatt. Thank you. So EPA is engaged as I noted in the 
broad characterization of drinking water supplies. We also have 
ongoing monitoring activities in watersheds. As I mentioned, 
the Cape Fear watershed has been an important area of work. And 
so I think as we get into estuarine environments, those are 
areas where we are thinking about the presence of these 
compounds. I think our primary initial focus has been around 
issues that immediately affect public health in making sure 
that we are addressing the needs of communities.
    Mr. Peters. OK. I would love to be updated on any activity 
on that.
    Mr. Grevatt. We would be glad to follow up with you on 
that.
    Mr. Peters. Thank you.
    And, Ms. Sullivan, I had a question about firefighting 
foams. You noted that it was a small part of the problem in 
terms of overall volume, but it looks to me like the military 
specs require fluorine compounds and I wanted to know how you 
see progress in moving away from that and does that requirement 
interfere with your work in dealing with the toxicity of these 
particular chemicals?
    Ms. Sullivan. Thank you for that question. The current 
military specification requires a certain performance as well 
as a makeup and part of that is driven by the need to be able 
to fight fires associated with aircraft quickly and 
efficiently. It is managed by the Department of the Navy 
because it is highly important that when we have shipboard 
fires that we have the ability to fight those fires very 
rapidly. We are working carefully with the current suppliers to 
determine what levels are in those compounds, the current 
formulations.
    In terms of research that we are investing in on a 
fluorine-free, it is basic research at this time, bench scale 
research. But we are committed to continuing that research to 
ultimately, hopefully, produce a product that does in fact meet 
our critical mission needs and is in fact fluorine-free.
    Mr. Peters. Good. I think that will be helpful throughout 
the economy and in a number of applications as well. So thank 
you very much for being here, and I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the birthday boy, Dr. Carter, for 5 minutes.
    Mr. Carter. I appreciate that, Mr. Chairman.
    Ms. Sullivan----
    Mr. Shimkus. You are very red.
    Mr. Carter. Yes, I am. I am. Sorry, I got my notes mixed up 
here.
    Ms. Sullivan, you mentioned in your testimony about the 
actions that the Department of Defense is taking not only in 
providing the clean drinking water, but also in the remediation 
efforts. And I was just wondering, I am interested in learning 
more about how you actually go about notifying the individuals 
on these installations and what the communication structure 
looks like.
    Ms. Sullivan. Well, first of all, happy birthday, sir.
    Mr. Carter. Thank you.
    Ms. Sullivan. Each of the military installations this is 
voluntary on their part. We encourage military installations 
and the communities to establish what we call restoration 
advisory boards and these boards are populated by local 
citizens who want to learn about the cleanup going on on those 
bases. It is voluntary on their part, but we support then and 
fund that activities.
    As far as on our bases, we have sophisticated notification 
systems for the populations present on the installations to 
make sure the information gets out and in full consistency with 
the Safe Drinking Water Act where we are in fact the purveyor. 
We do the routine monitoring and issue the consumer confidence 
reports on top of routine correspondence with the citizens on 
the base.
    Mr. Carter. So you are providing them with bottled water; 
is that right?
    Ms. Sullivan. It depends on the situation, sir, and what 
their choices are. In some cases we may hook them up to an 
alternative water supply or if in some cases they want bottled 
water, or we may install some sort of granulated activated 
carbon solution. It depends on the circumstance.
    Mr. Carter. But whichever way you do it, you do it until 
the remediation is completed.
    Ms. Sullivan. Correct.
    Mr. Carter. OK, good. What types of sites? Is there a 
particular type of site that you see the most contamination on?
    Ms. Sullivan. It is interesting it is a range of sites. A 
lot of it is associated with as you can understand firefighting 
activities, training mostly. The newer sites for us that we 
have to go and explore are crash sites. So usually with the 
firefighting sites there has been some other chemical or 
compound that has been used, so we have already done a certain 
amount of investigation. However, the crash sites are now newer 
that it is a challenge for us to go out and identify where 
those sites were and understand the circumstances around them.
    Mr. Carter. Good, thank you very much.
    Dr. Grevatt, you mention in your testimony that there were 
four significant actions that you were considering when you 
were making these recommendations for PFOS and for the 
contaminated areas. Can you explain those four to me very 
quickly?
    Mr. Grevatt. Yes, certainly. So the first is to explore the 
development of a national primary drinking water regulation for 
PFOA and PFOS. There are important considerations that we have 
to work through. That is ongoing right now. The second is 
exploring the listing of PFOA and PFOS as hazardous substances 
under CERCLA. There are many statutory mechanisms for achieving 
that goal that is very important in terms of our ability to 
order cleanup actions and to recover costs that EPA may expend 
for those actions. The third is development of groundwater 
cleanup goals under our waste cleanup programs for these 
substances, very important in terms of addressing contaminated 
sites. And then the final one is developing toxicity values for 
two additional PFAS substances, those are GenX and PFBS. And we 
are hoping to have those draft values available for public 
review and comment in the coming weeks.
    Mr. Carter. Do you have a timeline on all four of these or 
on the different steps?
    Mr. Grevatt. Right. So as I noted, the toxicity values is 
probably the closest to being completed and we are looking 
toward the coming weeks to have those completed. The 
groundwater cleanup recommendations are currently undergoing 
interagency review so that process is actively underway. The 
last two will be addressed in the National Management Plan 
which our goal is to have the completed by the end of the 
calendar year in terms of identifying the path forward on these 
important actions.
    Mr. Carter. Great. Well, thank you both in your work on 
this, very challenging.
    Thank you, Mr. Chairman. I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    Seeing no further members of the subcommittee, the chair 
now recognizes the gentleman from Vermont for 5 minutes.
    Mr. Welch. Thank you very much, Mr. Chairman, a couple of 
things. First of all, I just want to say that I believe the 
Environmental Protection Agency is a vital agency to protect 
the health and well-being of the American people and I want to 
thank you for your dedicated service.
    Second, we have an issue in Vermont with PFOA so I want to 
talk a little bit about that and then ask whether you can help. 
But in 2014, PFOA was discovered in Hoosick Falls, which is 
just across the border, and in the town of Bennington on the 
Vermont side there was a Teflon plant, Saint-Gobain, and it 
turns out that hundreds of private drinking wells in Bennington 
are contaminated and we are trying to work through that to 
provide for the health and safety of the residents there.
    But in June 2017 I wrote to then EPA Administrator Pruitt 
with a couple of direct requests and all as a result of what 
was happening in Vermont. One was that the EPA establish a 
national primary drinking water regulation for PFOA; two, that 
PFOA and PFOS be listed as hazardous substances under CERCLA; 
and three, that we take action under the Toxic Substances 
Control Act to review and regulate PFCs and I continue to 
request that those steps be taken.
    And, in addition, I believe and many in Vermont believe 
that there are several additional steps that the EPA must take 
on this front: One, establish toxicity profiles for the entire 
class of PFAS compounds; two, establish a reliable testing 
methodology for PFAS contamination that is present in sources 
other than water. For instance, how do we test milk produced 
from a cow drinking contaminated water or maple syrup from a 
tree drawing on contaminated water?
    Three, establish a maximum contaminant level as a backstop 
while providing resources to states that wish to adopt a more 
stringent standard; four, develop reliable and sufficient 
testing laboratories to identify contamination; and five, 
develop a national listing of products that contain PFAS.
    So the questions, Mr. Grevatt, I will ask you, can EPA 
commit to establishing toxicity profiles for the entire class 
of PFAS compounds?
    Mr. Grevatt. Thank you, sir. That is a very important 
question. As you know, it is a broad set of compounds, actually 
in total many thousand compounds. And through our Office of 
Research and Development we are looking not only at how to 
develop toxicity values for individual compounds like PFBS and 
GenX, but how to start to look at the broader suite of 
compounds and look at them holistically. That is still a 
research area. It is going to take some time for that work to 
advance, but that is a focus area for us and we are working 
with other parts of the Federal Government on those questions 
as well.
    Mr. Welch. Can you keep us posted on that?
    Mr. Grevatt. Yes, sir. We would be glad to do so.
    Mr. Welch. The clock is ticking on that.
    Two other questions, as I mentioned we currently lack a 
publicly available list of products that contain PFAS and 
related chemicals. We would like the EPA to compile that list. 
If you can't, what resources would the EPA need and what 
barriers are preventing you from doing that?
    And, finally, is the EPA currently investigating ways in 
which to test for contamination of non-water products like the 
milk example, the maple syrup example I just mentioned?
    Mr. Grevatt. Yes. Let me take the last question first, and 
absolutely yes, we are doing that. One of our commitments is to 
develop additional analytical methods for a media other than 
drinking water understanding how important that is in your 
state. And I had the opportunity to visit your great State just 
last week with the Environmental Council of the States meeting 
there and talk about these issues there. And our TSCA program 
is working right now comprehensively to get a broader view of 
the presence of PFAS compounds in different products. So that 
is an issue we will continue to work on and we will be glad to 
circle back with you and talk about that further.
    Mr. Welch. All right. Well, I would like to have you stay 
in touch with us as progress is being made.
    Mr. Grevatt. We would be glad to do so, sir.
    Mr. Welch. Thank you very much. I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the former chairman of the full committee, Fred 
Upton, for 5 minutes.
    Mr. Upton. Well, thank you, Mr. Chairman. Again I 
appreciate this hearing and I have got a lot of questions. I 
want to thank my colleagues on both sides of the aisle as we 
explore this situation for sure.
    But, Dr. Grevatt, I am going to start with you. As you 
know, the Safe Drinking Water Act that passed out of this 
committee was very bipartisan. We learned a lot of lessons from 
Flint. One of the lessons that we learned ended up in 
legislation that President Obama signed that killed the Upton 
bill which requires that the EPA when they know about 
situations of contamination that they are required within 24 
hours to inform the Governor, develop to work with the State on 
a plan to implement that.
    So my first question when I learned about Parchment, 
Michigan was is the EPA involved and the answer was yes. So I 
am very grateful for that and I brought that to the attention 
of the Acting Administrator Wheeler when I talked to him about 
it on the phone within a couple of days.
    I am glad to hear about the National Management Plan coming 
to Michigan. It is something that we want in Michigan and I 
know that my colleagues on both sides of the aisle will very 
much encourage that to happen and I would urge that as part of 
that visit that you come to Parchment as well where we have had 
a lot of different meetings.
    In mid-July, before we learned about Parchment, I would 
note that Congresswoman Dingell, Kildee, and myself and other 
members of the Michigan delegation urged the EPA to review the 
toxicology profile and if, in fact, it needed to be adjusted 
below 70 parts per trillion that they do so in an expedited 
process. Quick question, is that happening? What can we do to 
expedite that process? What is the timing of that?
    Mr. Grevatt. Thank you, Congressman. So we continue to look 
very carefully at all of the scientific information that is 
coming forward related to PFOA and PFOS. That is the focus of 
the drinking water health advisory and we will continue to 
consider that information going forward as we explore whether 
those values need to be changed.
    At this time EPA does not have plans to change the drinking 
water health advisory, lifetime health advisory for PFOA and 
PFOS, but we will continue to watch the literature and stay 
focused on this.
    Mr. Upton. I know that there is legislation that I am a 
cosponsor of that is going to encourage EPA to look at that to 
see what happens as that moves.
    Ms. Sullivan, your role is very important here, appreciate 
you being here. I have to say that I was very troubled reading 
your testimony last night in that on page 3 you indicate that 
you will share information, the Department of Defense will 
share information in an open and transparent manner.
    As you know, I wrote a letter back on August 1st relating 
to the National Guard Base in Battle Creek. Testing data had 
been taken 3 months prior to that, so 4 months now, and MDEQ, 
Department of Environmental Quality in Michigan, had 
independently found that there were perhaps as much as 21,000 
parts per trillion at that site.
    In addition, our Governor Snyder sent a letter regarding 
Wurtsmith and I think Selfridge as well, which I will put into 
the record. Again prior to August 1st, there was a public 
meeting held on July 30th. Yesterday, last night, I received a 
draft report of which I will put this page into the record. I 
will note that it is a draft, but on page ES-4 they tested 14 
different sites at Battle Creek. Nine of the sites were over a 
thousand parts per trillion. Four of the sites, one was 3,800 
parts per trillion; 4,300 parts per trillion; 25,000 parts per 
trillion; and 53,000 parts per trillion.
    So I would say as a non-engineer, I think Mr. McKinley 
would acknowledge that there is little doubt that it came from 
that site. So the questions are where is it moving? There are 
rivers that are close by. I don't think that there has been a 
real identification of private wells that are close by, but 
what is the impact on those? What is the impact on the 
community itself?
    But how is that full and transparent when it is now 4 
months after the testing? As we saw in Parchment, it was 4 days 
after the testing that we made it public.
    Ms. Sullivan. Sir, thank you for the question. I am not 
familiar with the specifics in Battle Creek. I actually lived 
there for a period of time so I am familiar with the area, but 
I will have to get with the Department of the Army and get the 
specifics.
    Mr. Upton. Well, did they share this with you before today?
    Ms. Sullivan. No, they have not. But I will----
    Mr. Upton. I mean this was literally dropped off at my 
office late yesterday afternoon as I understand it. I didn't 
see it until this morning.
    Ms. Sullivan. I have not seen it, sir. But I will get with 
the Army and we will get the answers for you.
    Mr. Upton. I look forward to that because I agree that that 
information ought to be in an open and transparent manner as 
you indicated in your testimony, and it is not when it is 4 
months late, let alone, how do we deal with this in the long-
term way for those individuals that are certainly impacted? Not 
only the servicemen and women, but also the folks that are 
living close let alone those that are along the Kalamazoo 
River.
    Ms. Sullivan. Yes, sir.
    Mr. Shimkus. The gentleman's time has expired. It is an Air 
National Guard Base so not an Army's.
    Ms. Sullivan. I apologize, sir. Yes.
    Mr. Shimkus. Not an Army post.
    Ms. Sullivan. I always think of Fort Custer. I am sorry.
    Mr. Shimkus. All right. The chair now recognizes the 
gentleman from California, Congressman Cardenas, for 5 minutes.
    Mr. Cardenas. Thank you very much. I may be on the other 
side of the country from my colleague, Ms. Dingell, next to me, 
but we share many of the same concerns, water and the effects 
of chemicals. And our water systems in California and Los 
Angeles are in some cases very dire so the EPA's activity and 
determination is very critical to every American all across the 
country.
    I note that Mr. Pruitt may be gone, but I wonder if the 
disinterest that I felt from him and his when he was there in 
human and environmental health still remains. Hopefully the 
commitment has changed. I didn't have much confidence in him 
and his ability to make sure that what is important to the EPA 
and to American citizens is consistent.
    Dangerous chemicals are contaminating our drinking water 
and we have known about it for years. We also know the 
extremely harmful effects that chemicals have on people, 
especially our children and seniors. Even this EPA has 
determined that chemicals like perchlorate and PFAS are 
dangerous to human health at levels found in our drinking 
water.
    Perchlorate, for example, disrupts the normal function of 
the thyroid, which is necessary for regulation of the heart 
rate and blood pressure. For babies, thyroid health is crucial 
for the development of the central nervous system. Yet, EPA has 
not established a national drinking water standard for 
perchlorate despite established research and proven science.
    Dr. Grevatt, can you tell the committee what the mission of 
the EPA is?
    Mr. Grevatt. Yes, sir, protecting human health and the 
environment.
    Mr. Cardenas. I love the fact that it is human health and 
the environment in that order. And I don't personally believe 
that there should ever be a disconnect between those two. I 
think we can do justice by minding both and doing what is right 
in both instances. So it is not, there is nothing in the EPA 
that says the EPA's mission is to protect industry or make 
compliance easier for industry, does it?
    Mr. Grevatt. Sir, the focus is on protecting human health 
and the environment and working broadly across the country to 
achieve that goal.
    Mr. Cardenas. OK, good. And being the largest economy in 
the world I understand, and being a former businessman myself I 
understand how important it is that we try to strike that 
balance of responsibility and regulation and laws, et cetera, 
so that we can have a healthy environment, healthy human 
beings, and also have the healthiest economy in the world. So I 
appreciate your clarity on that.
    Dr. Grevatt, when did EPA determine that a drinking water 
standard for perchlorate would meaningfully reduce risk for 
customers of public drinking water systems?
    Mr. Grevatt. This was a number of years ago in 2012.
    Mr. Cardenas. 2012. So why was that determination made or 
where did that come from?
    Mr. Grevatt. Sir, that was made following the key factors 
under the Safe Drinking Water Act that this is a compound that 
was determined to present a threat to the health of persons, 
that it occurred at a level and frequency in the Nation's 
drinking water supplies, and that in the sole judgment of the 
Administrator that a national primary drinking water regulation 
was necessary to protect public health.
    Mr. Cardenas. Do we have a national standard today?
    Mr. Grevatt. We do not yet. We are engaged in that process 
of developing the proposed rule.
    Mr. Cardenas. OK. You are engaged in that and what is your 
hope timeline wise? I know you don't have a crystal ball, but I 
am sure there are a lot of moving parts and there is a lot to 
be done before we set that or excuse me, you set that. So what 
do you think?
    Mr. Grevatt. Yes, sir. We are under consent decree for this 
process right now and we have interacted with the court to 
request a bit more time to address the latest science that came 
in through our process and so we are hoping to have a proposed 
rule available in the coming months.
    Mr. Cardenas. OK. Oh, so a bit more time, you are talking 
about your hope is in the coming months.
    Mr. Grevatt. Yes, sir.
    Mr. Cardenas. Not in the coming years.
    Mr. Grevatt. Yes, sir.
    Mr. Cardenas. That is awesome. This administration has been 
asking courts on various issues for more time, more time, more 
time, so I am glad to your response and hopefully you will meet 
your expectation and ours as well.
    How long has the EPA known about the risks of PFAS in 
drinking water?
    Mr. Grevatt. So we have known about the potential risks of 
PFAS in drinking water for a number of years and that is why we 
engaged with the manufacturers in the phase-out of these 
compounds over the last decade or so. And so that phase-out has 
been achieved, we followed that up with significant new use 
rules under TSCA to make sure that we weren't relying on the 
voluntary agreement, but we actually had the ability to require 
notification of EPA before these compounds would be 
reintroduced.
    So it has been a number of years that we have been actively 
engaged in this. And then I think you are aware that we 
completed this national drinking water survey of the presence 
of PFAS compounds in the Nation's drinking water supplies over 
the last several years as well.
    Mr. Cardenas. Thank you, Doctor. I appreciate it. And I 
yield back.
    Mr. Shimkus. The gentleman yields back his time.
    Just a side note, you want to know that Dr. Grevatt's 
professional educational background as a toxicologist; is that 
correct?
    Mr. Grevatt. That is correct.
    Mr. Shimkus. Thank you. The chair now recognizes the very 
patient Congressman Sarbanes from Maryland.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you all for 
being here.
    As you know, in 2018, ATSDR had prepared this study which 
showed the safe level of PFAS may be closer to 7 parts per 
trillion not 70. And at that time, officials at EPA and the DOD 
contacted the White House to express concerns about that report 
being released and what the public relation fallout might be 
and there are some emails related to that that were released in 
response to a FOIA request from the Union of Concerned 
Scientists.
    I wanted to ask a couple of questions about that because to 
be candid I have grown increasingly concerned about lack of 
transparency within the Trump administration and its various 
agencies. So this goes to that concern.
    So, Ms. Sullivan, in these emails that were released 
pursuant to the FOIA request somebody wrote, We, EPA and DOD, 
cannot seem to get ATSDR to realize the potential public 
relations nightmare this is going to be. At the time those 
emails were sent, were you aware of any DOD officials who 
shared those concerns?
    Ms. Sullivan. Sir, I am so glad you asked that question. 
When this process was going on my communications with the 
Office of Management and Budget were solely to ask when it was 
going to happen and what the communication plans would be. I 
did not provide any assessment of whether that was good or bad, 
it was simply asking when would it be released and what would 
the risk communication----
    Mr. Sarbanes. So I appreciate that but were you aware of 
any DOD officials who were sharing the concerns expressed in 
that email?
    Ms. Sullivan. No, I was the voice, sir.
    Mr. Sarbanes. OK. And I take it then you were not aware of 
efforts by DOD officials to impede the release of the report?
    Ms. Sullivan. No, I was not aware of any efforts.
    Mr. Sarbanes. Were you aware of any, or are you of any 
internal DOD review or response that relates to the matters 
discussed in the email?
    Ms. Sullivan. We have reviewed the draft document and 
submitted comments to the ATSDR and will respect the process 
that ATSDR goes through to develop the final document. I want 
to emphasize that we, and Dr. Grevatt has mentioned this 
before, we believe it should be peer-reviewed based on sound 
science, developed in a transparent manner, and we support the 
outcome of that.
    Mr. Sarbanes. Well, I appreciate it and I just worry that 
concerns about public relations can lean on the scale in a way 
that could undermine the scientific conclusions and judgments 
and assessments that are being made.
    Dr. Grevatt, we have seen some lack of transparency issues 
at the EPA as well. Under the previous administrator, Scott 
Pruitt, there were secret calendars hiding meetings with 
industry leaders, there was an undermining of career employees 
and scientific advisors. I know you are a career employee. I 
wonder if you have experienced any pressure from political 
folks at EPA or other administration officials to make 
decisions on a basis other than a scientific basis.
    Mr. Grevatt. I personally have not.
    Mr. Sarbanes. And are you or were you aware of the emails I 
just referenced at the time that they occurred?
    Mr. Grevatt. At the time I wasn't aware of the specific 
emails, but I was aware as Ms. Sullivan indicated of the strong 
interest in making sure that we had a coordinated 
communications effort across the federal government on these 
issues.
    Mr. Sarbanes. And I guess that is the concern, because you 
could dress up what might be a reflex to stop the release of 
something or slow it down significantly, notwithstanding the 
scientific basis for getting it released. That could be dressed 
up as just wanting to get all the ducks in a row and so forth 
and that is a fine line. And I am concerned based on some of 
the exchange of those emails that it may have tipped into a 
place where concern about PR, the public revelation of these 
new standards might have taken over the scientific judgment 
that should have been in place.
    So I will continue to bring some interest and attention to 
this, but I thank you for your testimony. I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    Seeing no further members wishing to ask questions, I want 
to thank the first panel for their time, their due diligence, 
and their answering of the questions. I think you can get an 
impression that this subcommittee and this committee they are 
pretty smart folks up here and have done their homework.
    I can't even pronounce some of these chemicals, but at 
least I think it was a good hearing on this and we look forward 
to addressing things again. So with that thank you very much 
and we will sit the second panel down.
    [Recess.]
    Mr. Shimkus. We want to thank our witnesses for being here 
today and take the time to testify before the subcommittee. The 
second panel consists of the following members: Ms. Lisa 
Daniels, Director of Bureau of Safe Drinking Water, 
Pennsylvania Department of Environmental Protection on behalf 
of the Association of State Drinking Water Administrators; Mr. 
Sandeep Burman, Manager of Site Remediation and Redevelopment, 
Minnesota Pollution Control Agency on behalf of the Association 
of State and Territorial Solid Waste Officials, both 
organizations I have worked with closely; Ms. Carol Isaacs, 
Director of Michigan PFAS Action Response Team, the czarina as 
was referred to earlier; and think soon to join us, Ms. Emily 
Donovan, Co-founder of Clean Cape Fear; and Mr. Erik Olson, 
Senior Director of Health and Food, Healthy People & Thriving 
Communities Program with the Natural Resources Defense Council.
    We appreciate you all being here today. We will begin the 
panel with Ms. Daniels, and you are now recognized for 5 
minutes to give your opening statement.

  STATEMENTS OF LISA DANIELS,, BUREAU OF SAFE DRINKING WATER, 
 PENNSYLVANIA DEPARTMENT OF ENVIRONMENTAL PROTECTION; SANDEEP 
BURMAN, MANAGER, SITE REMEDIATION AND REDEVELOPMENT, MINNESOTA 
POLLUTION CONTROL AGENCY; CAROL ISAACS, DIRECTOR, MICHIGAN PFAS 
ACTION RESPONSE TEAM, EXECUTIVE OFFICE OF GOVERNOR RICK SNYDER; 
 EMILY DONOVAN, CO-FOUNDER, CLEAN CAPE FEAR; AND, ERIK OLSON, 
  SENIOR DIRECTOR, HEALTH AND FOOD, HEALTHY PEOPLE & THRIVING 
     COMMUNITIES PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL

                   STATEMENT OF LISA DANIELS

    Ms. Daniels. Good morning, Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee. Thank you for the 
opportunity to talk about PFAS in drinking water. My name is 
Lisa Daniels and I am the President of the Association of State 
Drinking Water Administrators, whose members include 50 state 
drinking water programs, five territorial programs, the 
District of Columbia, and the Navajo Nation. Our members have 
primacy for implementing the Safe Drinking Water Act and they 
are on the front lines every day providing technical 
assistance, support, and oversight to our public water systems 
which is critical to protecting public health.
    So my other full-time job, I am also the director of the 
Bureau of Safe Drinking Water within the Pennsylvania 
Department of Environmental Protection.
    Today I would like to discuss ASDWA's concerns about PFAS 
and then really delve into three key recommendations we would 
like to make. PFAS compounds of course have been a growing 
concern for the drinking water community for more than a 
decade. To date, PFAS has been found in groundwater in at least 
38 states, and I think that is an important number to remember, 
38 states.
    The solubility, mobility, and bioaccumulative properties of 
PFAS continue to heighten concerns about the potential adverse 
health effects and there are many unanswered questions. For 
example, where are these compounds being manufactured and used 
in commerce, what are there toxicity levels, how are they 
impacting the environment and public health, and these are just 
to name a few.
    In 2016, EPA finalized the lifetime health advisories for 
two of the most common PFAS compounds, PFOA and PFOS. In June 
of 2018, as folks have remarked, ATSDR released a draft tox 
profile that proposed minimal risk levels and they proposed it 
at different levels than the EPA's health advisory number. The 
lack of a Federal standard and, really, this inconsistent 
health risk number have really led to increased public concern 
and driven some states to establish their own PFAS action 
levels. However, there are also other states that cannot take 
any independent action because they are prevented from being 
any more stringent than EPA.
    With all of this together it is really no wonder that the 
average American is left questioning whether their drinking 
water is safe. In my own State of Pennsylvania, our 
Environmental Cleanup Program is conducting site investigations 
at about 11 sites across the State. The investigations that we 
are doing are where there are levels above EPA's health 
advisory of 70, because we are fortunate that we can recognize 
health advisory levels in Pennsylvania and we do have authority 
to look at unregulated contaminants at those levels.
    However, certainly the adequacy of our actions are being 
called into question because of differing numbers that we see 
coming out from ATSDR and potentially some other States. We do 
recognize the science is still evolving PFAS and risk to human 
health. There is a whole host of analytical and technology 
challenges and data gaps surrounding this issue. And, really, 
what folks need are more robust information on health effects, 
analytical methods, and treatment efficacy.
    So clearly more work is needed, more research and data are 
needed to really help support a consensus-based standard and 
tox values. ASDWA partnered with several organizations 
including ECOS, Aqua, and EPA to help chart a path forward for 
States and Federal agencies. We have provided extensive written 
comments and recommendations to EPA and other Federal agencies 
on two different occasions. The first one was back in January 
of this year, and then a second set of comments was submitted 
in July. Essentially we are asking these folks to work together 
to help solve this issue. Anybody that is interested in seeing 
the comments that we wrote, all of that information is on our 
website as well as information that we continue to gather and 
pull together based on other States.
    ASDWA absolutely supports the commitments the EPA made 
during the National Leadership Summit and we think that is a 
solid step forward but more work is needed. In terms of ASDWA 
recommendations, states' water systems and the public need 
national leadership now to address this issue. And for us, the 
question is not whether to regulate but when and how, but make 
sure it is done using sound science.
    The three key areas we would like to suggest: We believe 
PFAS must be addressed at the national level using a holistic 
approach and we ask Congress to direct all the Federal agencies 
to develop a unified message for risk.
    Number two, we ask Congress to provide additional funding 
to EPA and the States to deal with this issue. Currently we do 
think folks are diverting money away from the core program in 
order to address this issue which is causing problems there.
    Third, Congress should recommend EPA to expand and 
coordinate across all of the programs and media. And with that 
we look forward to continuing to work with you to solve this 
issue. Thank you.
    [The prepared statement of Ms. Daniels follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you.
    The chair now recognizes Mr. Burman for 5 minutes.

                  STATEMENT OF SANDEEP BURMAN

    Mr. Burman. Good morning, Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee. Thank you for the 
opportunity to speak at today's hearing. My name is Sandeep 
Burman and I am the Manager of Site Remediation and 
Redevelopment for the Minnesota Pollution Control Agency. I am 
also a member of the board of directors of ASTSWMO. While 
Minnesota is a member of ASTSWMO, I am here today speaking on 
behalf of the Association.
    As you know, ASTSWMO is an association representing the 
waste management and cleanup programs of the 50 States, five 
territories, and the District of Columbia. As you know and as 
you heard from prior testimony today, per and polyfluoroalkyl 
substances, PFAS, have emerged as one of the most complex and 
challenging environmental and public health issues to have 
confronted the country in recent times. Many of ASTSWMO's 
member States are reporting widespread impact and risks from 
PFAS. Alabama, Colorado, Minnesota, New Jersey, Vermont are a 
few States who have provided summaries that are included in 
ASTSWMO's written testimony, but many States have similar 
stories to share.
    As States conduct additional sampling and response to the 
continually evolving understanding of PFAS and associated 
risks, it is expected that more releases and impacts will be 
discovered from both historical and current sources. The 
problem is therefore likely going to assume even greater 
magnitude and even more serious implications for public health 
and the environment.
    The current absence of established Federal regulatory 
standards for these compounds is creating uncertainty as public 
drinking water systems, wastewater treatment systems, 
regulatory agencies, responsible parties, and communities are 
attempting to address risks to public health and the 
environment. There is an urgent need for federal standards 
including reference doses, drinking water standards, surface 
water standards, and remediation standards that can be used to 
reliably address ongoing public health concerns.
    A comprehensive system of national standards will provide a 
level of certainty and consistency for environmental 
permitting, compliance, and cleanups. For instance, when it 
comes to drinking water, PFOS and PFOA are the only two 
chemicals from the PFAS family that currently have a federal 
guidance value. These were issued in 2016 by the EPA in the 
form of a non-enforceable lifetime health advisory of 70 parts 
per trillion.
    However, many states that are investigating PFAS impacts in 
drinking water cannot limit their efforts to just PFOS and 
PFOA. This is because they are detecting a mix of PFAS in the 
groundwater and drinking water. As a result, some States have 
had to develop their own standards and guidance for the various 
PFAS that have been detected in their drinking water and 
groundwater while other States have adopted the EPA lifetime 
health advisories for PFOA and PFOS.
    However, there are differences between the various State 
standards and many of the State standards for PFOS and PFOA 
differ from the EPA advisory values for those two chemicals. As 
you can imagine, this causes questions and confusion for the 
public as well as for regulated parties and regulators 
themselves.
    National groundwater standards are therefore urgently 
needed for the PFAS family to promote consistent and 
comprehensive cleanups across the country. This will assist 
States that do not currently have promulgated standards as well 
as those that may lack the resources to ever have their own 
standards. At the same time there will be the need to recognize 
the PFAS standards that are promulgated by States especially if 
they are lower than the corresponding Federal ones.
    States are also unclear on how responsible parties can be 
requires to remediate PFAS contamination. Therefore, a national 
regulatory framework not just guidance or recommendations is 
needed for the cleanup of PFAS in groundwater and drinking 
water.
    In May of 2018, EPA hosted a National Leadership Summit in 
Washington, D.C. to take action on PFAS. EPA announced several 
significant actions the Agency would take on PFAS primarily 
focused on PFOS and PFOA. ASTSWMO acknowledges these EPA 
proposed actions have been important first steps and 
appreciates the collaborative efforts EPA has made since the 
summit on these actions.
    However, ASTSWMO is still recommending to EPA that in 
addition to the action plan outlined at the summit, EPA should 
closely examine an approach that will treat the multiple PFAS 
as a class or a mixture of chemicals for the purpose of 
designating them as CERCLA hazardous substances or RCRA 
hazardous waste. This will ensure that there is clear 
regulatory authority to require responsible parties to 
investigate an immediate contamination from the multiple PFAS 
that are already being discovered as contaminates of concern 
across sites around the country beyond just PFOS and PFOA.
    There is also a clear need to coordinate efforts at the 
national level on all scientific and policy issues pertaining 
to PFAS. ASTSWMO has taken and will continue to take many steps 
to assist with this national collaboration. With that I thank 
you again on behalf of ASTSWMO for this opportunity to offer 
testimony and I will be happy to take any questions later.
    [The prepared statement of Mr. Burman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    The chair now recognizes Ms. Carol Isaacs, the director of 
Michigan's PFAS Action Response Team. You are recognized for 5 
minutes.

                   STATEMENT OF CAROL ISAACS

    Ms. Isaacs. Thank you so much. Good morning, Chairman 
Shimkus and Ranking Member Tonko, other members. I also want to 
recognize our Congressman Upton and Walberg and Congresswoman 
Dingell from Michigan and recognize them for their steadfast 
bipartisan focus on this issue. Michigan appreciates that.
    My name is Carol Isaacs. I am the director of the Michigan 
PFAS Action Response Team, better known as MPART. I represent a 
single State, Michigan, this morning, but our experience is 
national and all States are experiencing some or all of what we 
are experiencing. Michigan is one of a growing number of states 
throughout the country dealing with a suite of chemicals 
collectively called PFAS.
    To address this public health threat, on November the 13th, 
2017, Governor Rick Snyder issued an executive directive 
forming MPART. This unique structure integrates ten State 
department agencies' departments work effectively to enhance 
cooperation and coordination among local, State, and Federal 
agencies. And all of those, all of those are our partners. The 
Response Team has been instrumental in creating investigation 
and response protocols to identify and protect regions of the 
state with known or possible PFAS contamination, threatens the 
drinking water of our residents.
    The many proactive steps MPART has taken since the 
formation in November of '17 include the following: We 
established a new cleanup criteria of groundwater within a few 
weeks of the establishment of MPART. I have been present for 9 
months in my State in this capacity.
    MPART has identified 35 PFAS States, which include public 
water supplies and military bases and industrial sites and 
landfills. We have done more than 6,000 tests and overseen the 
delivery of alternate water to more than 1,600 households and 
overseen the installation of much larger than 700, it is 1,200 
filtration systems for homes.
    We have met with 200 wastewater treatment personnel in our 
landfill industry working cooperatively with them on this 
issue. MPART has created an independent science board advisory 
panel to provide information to us and we will expect results 
before the end of the year. We have engaged 70 external State 
and national groups on PFAS and continue to meet with our local 
residents and local communities. We will meet two to three 
times a month in some community from Michigan.
    Our legislature appropriated an additional 23 million at 
the end of '17 to allow us to do our proactive investigation on 
PFAS. We are characterized by searching for this contamination. 
Importantly, MPART has undertaken the most comprehensive state 
drinking water survey in the nation. It far exceeds the survey 
of large cities over 10,000. It includes all public water 
systems that serve more than 25 people and that includes our 
mobile home parks, so it is really, really extensive. We will 
have that completed before the year is out.
    The wisdom of a comprehensive survey of drinking water is 
important because this survey has resulted in covering the 
drinking water for the vast majority of our residents. Through 
this survey we were able to find and mitigate high levels of 
PFAS exposure in our drinking water with one of our 
communities, Parchment. You heard about Parchment a little bit 
earlier. Those levels were 20 times higher than the EPA 
advisory level.
    In a matter of hours, the State was able to have a very 
effective response. We worked diligently with our Federal and 
local partners. In that short period of time we were able to 
alert the community from our testing results, pay for bottled 
water to be distributed, and assist in helping to provide a new 
water source from a nearby community.
    We want to focus on our proactive and aggressive approach 
from PFAS that resulted in preserving the public health of more 
than 3,000 of the people in this city. We also thank this 
community for their cooperation and willingness to respond to 
this situation in such a unified manner. It was really a very 
wonderful effort and worked very well. We continue in this 
community to test their private wells now that we are aware 
that they have some contamination.
    I am going to close by indicating why this is a national 
issue. We looked to EPA for guidance for all the reasons you 
have already heard. We need that guidance because DOD follows 
that. We also need a uniform understanding of the relationship 
of these chemicals. When it comes to health care and cleanup 
standards, we need a cooperation between ATSDR and EPA and we 
need to look to the FAA to work with us because they work with 
the DOD. When we have regulation from these entities then the 
State matches the military and the airports and we are all 
doing the same thing, the most effective thing.
    In closing, USDA is needed for our food chain analysis. And 
we are going to say that clean water is essential to all 
Americans and we appreciate everything that Congress is doing 
for us at this point and we wish to have you consider in your 
budget priorities the funding necessary to do this. This is a 
national issue. The States can't do it all. We need our Federal 
partners. We need our Congress. We need you to help us put this 
all together so that we can rapidly address this for the public 
health of the people in Michigan and across the country. Thank 
you very much.
    [The prepared statement of Ms. Isaacs follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentlelady's time is expired.
    The chair now recognizes Ms. Emily Donovan, co-founder of 
Clean Cape Fear. You are recognized for 5 minutes.

                   STATEMENT OF EMILY DONOVAN

    Ms. Donovan. Thank you, Mr. Chairman and members of the 
subcommittee for elevating the issue of PFAS water 
contamination to the highest level possible. My name is Emily 
Donovan and I wear multiple hats. I am a Youth Director at a 
Presbyterian Church on Wrightsville Beach. I am a wife and a 
mother raising 9-year-old twins, and I am also co-founder of 
Clean Cape Fear.
    We are a water advocacy group that formed after learning 
DuPont Chemours was dumping large quantities of highly toxic 
PFAS into our primary source of drinking water, the Cape Fear 
River. Today I would like to speak to you as a mother who has 
spent the last 15 months getting a crash course in 
biochemistry.
    Imagine waking up to headlines that the same company who 
spent a historic $670 million to settle over 3,500 lawsuits in 
another State for poisoning their drinking water was doing the 
exact same thing to yours. That is exactly what DuPont's 
spinoff Chemours did with GenX, their C8 replacement for making 
Teflon, and GenX was only 12 percent of the total PFAS found in 
our finished tap water. I am largely here today because of a 
handful of dedicated scientists from North Carolina who 
stumbled upon something in the Cape Fear River at alarmingly 
high quantities and decided to investigate it.
    Due to their tireless research, we know now at least 25 
different PFAS have been discovered in our finished tap water 
and in private wells around DuPont Chemours' facility in 
Fayetteville. We learned early on through court documents that 
DuPont Chemours has mastered the art of deception and I believe 
this chronic polluter has no problem exposing millions of 
citizens to these toxic chemicals.
    It has been a year since we learned about GenX and we still 
know nothing about the majority of chemicals in our finished 
water. Not a single health official, scientist, or policymaker 
can tell me if the 16 mystery PFAS I found in the tap water at 
my children's public school are safe to drink. There are no 
recommended dose levels. There are no toxic mixture studies to 
guide me on how these chemicals interact with each other or 
could potentially harm my children as they grow up.
    It sickens me to think that I may have harmed my children 
by simply raising them to drink the tap water. I will forever 
wonder if that choice will one day cause them major medical 
harm. I now send my children to school with water bottles 
filled with reverse osmosis water because it seems to be the 
only reliable filtration method to remove these toxins and our 
RO filters are incredibly expensive. I pray daily it is enough 
to keep them hydrated the whole day. I worry constantly about 
the children drinking from the school tap water because their 
parents are either unaware or can't afford to access properly 
filtered water.
    It is not just parents who are worried about their 
children. We as adults are also worried about our own health. 
These toxic chemicals do not act equally in our bodies. Some 
people may never develop serious health problems while others 
aren't so lucky. Our State's leading PFAS toxicological 
researcher publicly stated the true impacts of GenX may take 
years to become known because cancer takes its time to reveal 
itself in humans.
    I am here to testify that Wilmington and Fayetteville area 
residents are already showing signs of obscure and rare 
cancers, immune disorders, and diseases in populations far too 
young to pass off as normal. How many of your friends are 
battling cancer?
    I am 41 and my friend Sarah is battling stage 3 colon 
cancer. My friend Tom has terminal brain and bone cancer. My 
friend Kara, an Operation Iraqi Freedom veteran, has stage 3 
breast cancer and had her gallbladder stop working. My friend 
Margaret has a rare bone cancer and my friend Robert has 
leukemia and bladder cancer. And my own husband had a benign 
brain tumor and almost lost his eyesight. I am frightened. We 
already know testicular cancer is on the rise in our region. We 
know thyroid cancers are nearly double the State and national 
averages in Brunswick and Pender and New Hanover Counties.
    We need you to act swiftly now. We want a nationwide PFAS 
human exposure study that includes all known PFAS, not just the 
already well documented PFOA and PFOS. We need to move beyond 
GenX, PFOA, PFOS, and PFBS and regulate all PFAS as a class of 
highly toxic chemicals, because I know and you know that you 
don't have time or money to individually regulate the estimated 
10,000 PFAS in our water today or in use today.
    We need to get these nasty toxins out of our drinking water 
now so no one else suffers the way we are in North Carolina. 
Look to the Madrid Statement for guidance that debunks the 
long-chain myth. Require all chemical makers provide standards 
for all PFAS produced including byproducts. Make the EPA begin 
rodent toxicology studies on all these chemicals. Mandate that 
public utilities nationwide conduct mandatory, comprehensive 
PFAS testing with the method detection limits set at 1 because 
the American people deserve to know every drop of these nasty 
chemicals that are in their drinking water.
    Congress should deny all Federal contracts including 
defense contracts to chronic PFAS polluters like DuPont and 
Chemours. If they can't play by the rules, they don't deserve a 
single Federal taxpayer dollar. Set parameters for an adequate 
period of time and require these chronic polluters pay for 
remediation and cleanup. And we demand the maximum contaminant 
level for all PFAS be set to 1 part per trillion in light of 
the recent CDC study citing again the Madrid Statement.
    Thank you so much for your time. It has been an honor to 
testify before your committee.
    [The prepared statement of Ms. Donovan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Shimkus. Thank you very much. We are happy to have you.
    Last is Mr. Eric Olson, senior director of Health and Food, 
Healthy People & Thriving Communities Program from the Natural 
Resources Defense Council. You are recognized for 5 minutes.

                    STATEMENT OF ERIC OLSON

    Mr. Olson. Thank you Mr. Shimkus and thank you Ranking 
Member Tonko and members of the committee. You just heard about 
the real-world impacts of these chemicals in our water supplies 
across the country. In fact, probably every person in this 
room, every member of this committee has these chemicals in 
their body. Over 98 percent of the public has these chemicals 
in their body. I view these as the new PCBs.
    Members may remember many years ago that it took an act of 
Congress, literally, to ban PCBs. We are very concerned that 
this is a very broad class of thousands of chemicals that have 
not, frankly, been meaningfully regulated. We have a little bit 
of action on a couple of them, but the vast majority there has 
been virtually nothing done at the Federal level in most 
States.
    I also want to say that we know that there are six million 
people from a Harvard study that are drinking two of the PFASs 
in their water at levels above EPA's action level. Six million 
people. When those numbers come down as a previous questioner 
suggested, there are going to be a lot more people that are 
shown to have excessive levels of these chemicals in their 
water supplies. It is going to happen, I guarantee you, in 
every single State, probably in most congressional districts.
    As we get the new data coming in we are going to see this 
across the country. These impacts we heard about a variety of 
them. They include cancers of the kidney, cancer of the 
testicles, other adverse effects including immune system 
impacts, impacts on the thyroid, impacts on fetal development.
    And I just want to share a story that I--I just got a phone 
call yesterday from a citizen who is in Cape Fear, very similar 
to the story that you just heard, and she had actually lost her 
baby. She found out afterwards that she had been drinking 
excessive levels of these chemicals in her water. She was a 
marathon runner. She routinely drank a lot of the water.
    She wants to know, what are the impacts of the people in 
her community? What does she tell her kids? What does she tell 
the rest of the community? There are 11,000 people in her 
organization and I know Ms. Donovan's group has a lot of 
members really trying to fix this problem. It is across the 
country. We need action. And I ask that a letter that has about 
50 groups signed on to it asking for action be entered into the 
record which addresses some of the needs.
    There are obviously concerns about setting an EPA drinking 
water standard. We would like to see EPA move forward. 
Unfortunately the Agency has known about this problem for more 
than a decade and hasn't even made a determination that a 
standard is necessary. And I didn't hear EPA commit to making a 
determination in the earlier testimony today.
    I don't think we got a commitment from the Agency to even 
determine that a standard needs to be made. And as we heard 
earlier, even where EPA makes such a determination which they 
did for perchlorate, the only chemical in 22 years under the 
Safe Drinking Water Act 1996 amendments that EPA made a 
determination, EPA still a decade later has not even proposed a 
standard.
    In addition, obviously in addition to a standard, we need 
States to be taking action because EPA isn't going to be doing 
anything very quickly. States need to be stepping into the 
void. Some States are doing it, New Jersey, Vermont, New York, 
California, other states are looking at action. We need to stop 
the further contamination.
    We need to have cleanup standards. We need to have a phase-
out of the uses that are causing all this contamination. We 
need polluter pays requirements so that the polluters are 
paying to clean up, not citizens who have contaminated drinking 
water. Why should they have to pay for the cleanup? It really 
ought to be the polluters paying for it. We need an authority 
for citizen action, for medical monitoring and enforced 
cleanup.
    We also need, clearly, action on food uses of these 
chemicals. Your pizza boxes, a lot of your other food packaging 
contains these chemicals in them. You are being exposed through 
your food and we need to take action to address those. And, in 
addition, we clearly need EPA to take action under the Clean 
Water Act and the Toxic Substances Control Act to address new 
uses and new PFASs.
    And, finally, we certainly need action under the Safe 
Drinking Water Act to ensure that we have more funding through 
the State Revolving Fund and through a cleanup fund to start 
cleaning these problems up before they just causing nationwide 
disaster from the public health perspective. Thank you very 
much.
    [The prepared statement of Mr. Olson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Shimkus. The chair thanks the gentleman. And now I will 
recognize myself for the opening of the round of questions and 
I will recognize myself for 5 minutes.
    I want to go to Ms. Daniels. Your testimony calls for ``a 
holistic national approach keying off a unified message.'' Why 
don't you think that the Federal Government is doing that right 
now and are there technical barriers to it being done that way?
    Ms. Daniels. So yes, thank you for that question. So I 
think the Federal Government is doing a better job of it now 
but I would argue that I don't think there was much of that 
going on for the last 10 years. So I think possibly since 
signaling through the summit, action moving forward, I think 
they have been doing a better job.
    But, for example, I still see the silo effect that we have 
between EPA and ATSDR. So why do we have two different agencies 
doing essentially the same amount of work or the same type of 
work which is risk assessment work, why aren't those two 
agencies working together on that very important topic?
    And I think when I see things that EPA is doing, I think 
they are probably doing a better job talking to their 
counterparts in wastewater and in drinking water, but I haven't 
seen FDA necessarily pull to the table. So I think that is a 
partner that has sort of been missing at least from my 
perspective. So I think they are doing a better job since May 
that I don't think that was happening much before that.
    And I think so there has been a lot of conversation about 
the UCMR rule, to me if a chemical reaches the level where it 
is going to be part of the UCMR rule, way back in those phases 
folks should already be looking at how to reach out to the 
other groups that have a part in this. So why didn't we have 
standards from wastewater and waste back then, because it is 
natural for states to want to try to find where those things 
are coming from and we still don't have standards in those 
areas.
    Mr. Shimkus. So just for correction, I use the word 
technical for a reason, but you explained more administration 
and legal hurdles. Just leadership, I am a big leadership guy 
and someone has to be in charge and someone has to keep people, 
so that is really your response is more legal and 
administrative.
    Ms. Daniels. Well, there are some technical challenges too. 
So in drinking water we can take action with an MCL. We can 
take action with a HAL. In Pennsylvania, our wastewater folks 
are having a challenge addressing PFAS and discharges because 
some of them can represent, recognize a HAL but others need an 
MCL or a water quality standard in order to take action. And in 
our waste program we have the luxury that they can recognize a 
HAL as well but not all states can do that.
    So there are different trigger levels for these different 
agencies in terms of when they have authority to take an action 
and that is where we have some inconsistency.
    Mr. Shimkus. Let me go to Mr. Burman. What technical or 
economic barriers do States face with respect to responding to 
PFAS contamination?
    Mr. Burman. Thank you, Mr. Chairman. For the States from 
the cleanup perspective, the biggest challenge, really, is the 
uncertainty about which of these compounds do we really go 
after. They do not occur as just PFOS and PFOA in isolation. It 
is a mixture and States are rapidly finding more and more of 
these.
    The question is, in the absence of established and formal 
health standards, which ones should the State focus on, how do 
you sample for them, and how do you clean them up. So there is 
a lot of uncertainty about the nature and occurrence, 
standards, and just the basic fundamental nuts and bolts of how 
do you sample for them, how do you detect them, and what 
technologies can really get them out of water and soil.
    Mr. Shimkus. So what are States and territories doing to 
address the uncertainties that you just mentioned?
    Mr. Burman. Thank you, Mr. Chair, for that question. And as 
in my previous testimony, what is happening is States are 
driven by what they are finding and they are evolving their own 
risk assessments and they are coming up with, in some cases, 
promulgated standards and in some cases values for additional 
PFAS.
    A lot of States now, I shouldn't say a lot, but a handful 
of States have another six to eight PFAS that commonly have 
standards now and States are finding another dozen or two dozen 
commonly in soil and water. So that has been the biggest, the 
ability to detect these contaminants and to find them has 
outstripped our ability to actually offer health advice to 
people. So that is the biggest conundrum that States have that 
they have sort of created for themselves by the drivers that 
they have to go out and find these because we know they occur.
    States are also trying to do the best they can with 
remediation technologies. It is a lot of, frankly, old school 
technologies that are coming back. It is your basic excavation 
and putting them in landfill, capping them, incinerating them, 
and for groundwater, really, activated carbon, solid old and 
tried technology. These are all that is really available to the 
States.
    But there are efforts to try and find some more cost-
effective methods that are happening at the States, again 
driven by the need that they have.
    Mr. Shimkus. Thank you much. I am going to end there in 
lieu of time, but it was just a point that I was going to 
follow up with Ms. Isaacs is that I am wondering with the czar 
aspect, czarina aspect, do you have--I am not going to give you 
time to answer because of my limited time, but is that working 
better than, because you have got all the agencies of Michigan 
together and you are like, I can tell, the marching them in a 
certain direction.
    So we will talk later or we will add that to a question for 
the record. I now yield 5 minutes to the ranking member, Mr. 
Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. And thank you to our 
witnesses for what are very powerful testimonies that you 
shared, so much appreciated.
    A lot of discussion with the previous panel about 
designating a hazardous substance with the PFOAs and PFOS. What 
in your determination, and I will address this to Ms. Daniels, 
Mr. Burman, and Ms. Isaacs because of your relationship with 
the respective States, what would the impact on States be if 
EPA were to determine PFOA or PFOS as a hazardous substance 
under CERCLA?
    And I heard some of Mr. Burman's comments about that but in 
a more direct way what would States be enabled to do?
    Mr. Burman. Thank you, Mr. Tonko. For States that would 
probably be the single biggest impact because it would bring 
the full weight and power and formality of CERCLA to bear on 
this contaminant. We have heard Ms. Sullivan talk about DOD 
using the CERCLA process. We commend yDoD in doing that but it 
is essentially almost a voluntary process and very few 
responsible parties are voluntarily going to choose to apply a 
CERCLA-like process to this contaminant. So having CERCLA 
formally being introduced to the playing field would take care 
of that. It would provide a consistent framework that has been 
perfected for almost 40 years.
    Now having said that, this subcommittee has held hearings 
on modernizing Superfund and there is always room for 
improvement, but the baseline that CERCLA would provide would 
enormously contribute to stripping of the lot of the 
uncertainty both in terms of the technical aspects and the 
policy aspects that currently states face.
    Mr. Tonko. Anyone else want to add to that?
    Ms. Isaacs. Yes. Michigan, in full partnership with EPA, it 
would provide an additional tool that we could use together in 
looking at holding responsible parties responsible. We 
currently are working with the EPA on enforcement actions. If 
we had this new tool it would be more effective, I think, and 
might not need to go to court often if we have established 
processes that everyone knows about.
    Mr. Olson. Mr. Tonko, may I speak to that just briefly? 
Quickly, without having these chemicals listed under Superfund, 
CERCLA, there is a real problem that an obstreperous defendant 
will simply refuse to clean up. And, just listing two of them 
may help at some sites, but as you just heard there are 
actually dozens of these showing up. So there needs to be a 
broader designation that would cover a broader array of PFASs.
    Mr. Tonko. And, Ms. Daniels, quickly, if you could just 
share a little more.
    Ms. Daniels. Sure. So in Pennsylvania we can use a health 
advisory for our cleanup folks to take action, but I think in 
other States that determination would be very helpful. The only 
other thing I wanted to mention is we don't always find a 
responsible party for all of these sites. We have two right now 
working in Pennsylvania that we have no idea where it is coming 
from. So right now the cost of that cleanup is certainly being 
borne by the state, so just keep that in mind.
    Mr. Tonko. Thank you.
    And, Ms. Donovan, if I could go to you, I know we spent a 
lot of time focusing on PFOA and PFOS. Those are the 
contaminants that I am most familiar with in my home State of 
New York. But we know that there are thousands of similar and 
toxic variants like GenX. How important is it for EPA to 
evaluate and provide meaningful risk information to take 
regulatory action on PFAS more broadly?
    Ms. Donovan. Well, I think North Carolina is the perfect 
example where there is nothing. There is still no information. 
There is no risk assessment for GenX. And GenX again was just 
12 percent of the total of PFAS that were detected. Right now, 
North Carolina is looking at, I believe DEQ said 25 different 
PFAS.
    These chemicals are also byproducts as well and I think 
that is important to understand. When we don't have any 
information, we don't know how to assess them and address them 
so they don't get talked about. And I think that has been a big 
letdown to the community and to the American people is that we 
know they are there, the scientists can see them. But the 
scientists don't have test standards for them so the scientists 
can't come back to public officials and tell them accurately 
this is how much is in the water.
    And then EPA with test standards could begin rodent 
toxicology studies and give us those risk assessments on the 
PFAS that we are looking for. So I think it is really important 
for us to consider requesting that the EPA begin doing rodent 
studies on all of the PFAS, but they can't do it until they get 
test standards. And those test standards come from the 
manufacturers because they know exactly what they are making. 
They know what chemical byproducts are coming out too.
    So if we had all of that information and could start the 
process there that would have really helped North Carolina move 
along a lot further than we are right now, because we have 
wasted a lot of time.
    Mr. Tonko. Thank you. With that I yield back. I have 
exhausted my time so.
    Mr. Hudson [presiding]. I thank the gentleman. At this time 
the chair will recognize himself for 5 minutes for a question.
    I would like to first again to thank Ms. Donovan for being 
here, very compelling testimony. Appreciate you sharing your 
personal story and the story of our neighbors.
    And, Ms. Isaacs, I was encouraged reading your testimony 
and hearing from you today. I think one of the underscores I 
would like to make is the bipartisanship that we have seen in 
Michigan that I believe we see in North Carolina that I think 
is very important here. This is not a Republican or Democrat 
issue. It needs to be bipartisan. We need a bipartisan approach 
and that is something that in North Carolina we have certainly 
tried to do.
    You state that your State is one of many that has adopted 
guidelines or guidance values or standards for PFOS and PFOA 
chemicals based on the EPA's toxicity value and the EPA-issued 
2016 health advisory level. Was there any information that was 
missing from the toxicity value for health advisory level that 
hindered your ability to develop your own standards in 
Michigan?
    Ms. Isaacs. We developed our standard at the beginning of 
2018. We did not receive, we requested as everyone else did, 
information from ATSDR. The 852-page report did come out and 
that is another source of information that informs us. When you 
are a State and you are looking to set a standard of course you 
are having your own scientists review the information. You are 
looking at the toxicology report from ATSDR. You are looking at 
the lifetime health advisory. You are putting it all together 
and you are trying to determine the most protective standard 
for your people.
    We know it has changed. We know it changed in '09, we know 
it changed in '16, and now we have new information. So this 
evolving contaminant and the research evolves, clearly we would 
like more research. And we are actively engaged at looking at 
the correct standard for Michigan. So did we need more 
information? We did, and we did get more information and we 
think still yet there is more to come.
    And we realize that there are many analytes, but I think we 
are focused on the ones that would produce the most risk to our 
public health, sir. Thank you very much.
    Mr. Hudson. Thank you. Ms. Daniels and Mr. Burman----
    Ms. Donovan. I am sorry, can I interject?
    Mr. Hudson. Briefly, a little bit of time here.
    Ms. Donovan. OK. I think there is a misconception and if 
you look at the statement you will see that we have no idea 
what is considered high risk and not at risk. Short-chain, I 
think EPA is working under the assumption that short-chain 
chemicals, PFAS, are not as toxic as long-chain. However, you 
have to use more short-chain.
    So we have no idea at higher levels, higher quantities, 
they are still acting the same way in the body it just takes 
more of them and we are finding more of them in our water in 
North Carolina. So I don't think we can decide to catalog that 
a couple are more toxic than others, we simply don't know. 
There is zero scientific information to prove that some are 
less toxic than others at the moment. Thank you.
    Mr. Hudson. OK, appreciate that. Ms. Daniels and Mr. 
Burman, you are both responsible for cleanup and remediation of 
these chemicals and I appreciate your testimony. Based on your 
experiences, once the toxicity value is released does that give 
States enough information to develop a cleanup plan?
    Ms. Daniels. So I can tell you in Pennsylvania we need a 
health advisory level, so we need that number and we need EPA 
to establish that number for us to be able to take action. A 
tox value doesn't give us what we need from our legal 
authority.
    Mr. Hudson. Mr. Burman?
    Mr. Burman. Thank you, Mr. Chair. What I can tell you is 
from the perspective of the States it varies. Some States have 
robust public health agencies who can take that tox value and 
come up with a state number for it, but then the problem even 
for those States is in the absence of that being a federal 
number can they really apply it.
    A lot of States simply do not have the resources to take 
the EPA baseline information and create their own values so 
they are reliant entirely on a federal value.
    Mr. Hudson. Got you, I appreciate that.
    Ms. Daniels, during the first panel today, Dr. Grevatt from 
EPA mentioned the states could use their SRFs if they choose to 
address PFAS contamination. Do you know how many States already 
do this?
    Ms. Daniels. So, thank you for the question. Absolutely 
States can use it, but there is tremendous, I guess, work that 
needs to be done in lots of different areas. So you are also 
competing with projects for lead, projects for aging 
infrastructure. I think folks will be moving forward with new 
treatment for hazards. There is a whole list of things that 
that money needs to address.
    So yes, PFAS is just one more of those things that could be 
used for projects. In Pennsylvania we have one application in-
house right now for somebody that wants to install treatment 
for PFAS.
    Mr. Hudson. But you are not for sure how many other States 
are actually----
    Ms. Daniels. No, but we would be glad to do a survey and 
get back to you on that one.
    Mr. Hudson. That would be great.
    Ms. Daniels. Absolutely.
    Mr. Hudson. If you could report that back for the record I 
think that would be important for us to know. I really 
appreciate that.
    As my time has expired, I will now recognize the gentlelady 
from Michigan, Ms. Dingell, for 5 minutes for her questions.
    Mrs. Dingell. Thank you, Mr. Chairman. I have a lot of 
questions so I am going to ask you to be concise. As we have 
discussed, Michigan has 35 sites that have already been 
identified. I know that you are really leading the effort with 
the State of Michigan as one of the States that is doing more 
than anybody does but we need to be doing a lot more.
    In your testimony you state that Michigan supports 
establishing a national standard for PFAS. Briefly, can you 
state the benefits of setting that standard and is there a 
specific standard that the State of Michigan would like to see 
set for PFAS chemicals and do you think that where the national 
standard is now is where it should be?
    Ms. Isaacs. I think that I have seen the movement by EPA to 
change this. If we look into '09 it was 400 and 200. We look in 
'16 it came down to 70 parts per trillion combined for those 
two long-chain PFAS. And again we see now ATSDR having a new 
focus on research that now brings children into this issue and 
we are looking at the effect on children. Minimally, we need to 
take into consideration a standard that addresses children.
    So yes, we have asked EPA to set that standard and more 
than that we have asked them to work with ATSDR so that we can 
coordinate the health assessment along with EPA's enforceable 
cleanup standards for the States.
    Mrs. Dingell. Thank you. I want to go to the most recent, 
Parchment, in Fred's district, or Mr. Upton's district, and the 
Huron Valley watershed. One of my concerns is that there have 
been three announcements now in the last 6 weeks about not 
eating fish and it has gradually gone down river to Lake Erie. 
But my understanding is that the first fish was actually caught 
in May of 2017, put in a freezer and was not tested until very 
recently and so it was 16, 18 months later that the do not eat 
fish announcement was put out.
    Why did that happen, do you have the resources you need, 
and how do we make sure that we are responding in a more timely 
way?
    Ms. Isaacs. Thank you so much for that question. Let me say 
that as we moved as rapidly as humanly possible to do and 
search out sites of contamination in Michigan we started to 
look at doing surface water testing in our rivers that to 
inform us if we have sites of contamination bleeding into the 
river. And when we look at fish testing, we added PFAS to our 
testing a few years ago. We have been testing fish since 1970.
    I actually called the lab director at the Health Department 
and asked him about the issue that you just asked me about and 
he said it is not unusual that we take fish and freeze them. 
And he also said we have done more than 700 samples this year. 
They are moving incredibly rapidly. They have been given money 
from the legislature to expand their ability to test and they 
are searching diligently for staff to be able to handle more 
testing of water, fish, deer.
    And as we have looked at these industrial pretreatment 
processes in our water treatment plants and our disposal plants 
that affect our waters, we use those areas of investigation to 
go back, look at make sure we tested the fish, make sure we 
know where the contamination is coming from. And I will address 
Huron if you want.
    Mrs. Dingell. Well, I think you will acknowledge that one 
took too long and you are trying to make it quicker. I only 
have a minute and I have so many questions, but I think it is 
really important that people know it did take that long and you 
are trying to cut that time now.
    Ms. Isaacs. Yes, ma'am.
    Mrs. Dingell. Is Michigan testing for what we have been 
talking about today, the GenX?
    Ms. Isaacs. We are not testing for GenX. There is very 
little known.
    Mrs. Dingell. Why?
    Ms. Isaacs. We are using two testing methodologies, 537 and 
an analyte test and that brings us to 24 different chemicals 
that we are searching for. You heard that we have a suite of 
about 3,000-plus and those two water tests are the acknowledged 
tests, 537 requested and required by the EPA. And the 
additional test that we run with more analytes, we run because 
we get more PFOS.
    Mrs. Dingell. I am out of time. I yield back no time.
    Mr. Hudson. I thank the gentlelady. I just want to 
recognize the gentleman from Michigan, Mr. Walberg, for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And I would like to start off by adding my welcome to Ms. 
Isaacs, who is the director of Michigan PFAS Action Response 
Team. And possibly as our chairman had indicated, the czar 
setting that has taken a more comprehensive look at what is 
going on, certainly not with perfection but moving that 
direction as much as possible, I am glad that you are here to 
talk about the issues facing Michigan and the comprehensive 
response Michigan is putting forward.
    Mr. Chairman, I would also like to take the opportunity to 
thank you and this committee for placing a priority on the 
issue by holding this hearing today. Safe drinking water should 
never be a worry for any person. I am glad this committee takes 
this issue seriously, as has real live people here too that 
have had to address it in their families and communities also.
    Unfortunately, Michigan is no stranger to a water crisis. 
The current PFAS situation impacting Michiganders is one that 
most certainly should be taken very seriously and be handled 
with all hands on the deck approach. I want you to know, Ms. 
Isaacs that I will continue to work with you and the State of 
Michigan and my colleagues to tackle this issue in any way 
possible. Safe drinking water is critical and the current PFAS 
issue facing Michigan ought to wake us up across the Nation and 
still further.
    Let me ask this question, Ms. Isaacs. Can you explain how 
the State of Michigan is addressing and approaching the current 
issue in Michigan and specifically what do you consider to be 
the most important features of the way our State is addressing 
this situation including maybe talking about the so-called czar 
status approach.
    Ms. Isaacs. Yes. The structure of combining ten state 
departments, you know this from your own Federal level of 
government that bringing those departments together is 
sometimes different, sometimes difficult, different cultures. 
When you bring them together under an umbrella it is placed out 
of the Governor's Office and you have this intense 
communication. It makes everything quicker, everybody 
understands the issue.
    Ten state departments that talk multiple times a week is a 
structure that is so unique that we have been able to 
accomplish amazing things in 9 months. And what characterizes 
this as different isn't just the organizational structure put 
in place by Governor Snyder. That is unique and effective, but 
when we strategize to look at everything at once.
    If you are looking at landfills and you are looking at 
wastewater treatment plants and you are doing surface water 
testing and you are testing every single public water supply in 
addition to private wells, and we have almost a million of 
those, you are so comprehensively reviewing your entire State 
knowing what your situation is, mitigating against the public 
health risk, and then addressing the remediation of how we 
actually fix this.
    It is characterized by being a comprehensive, very quick 
heavy lift of what is the situation in our State, again cannot 
be done without the support of our legislature and our 
Congress. I am grateful for all of the work that all of you 
have done.
    Mr. Walberg. Almost a Marshall Plan approach, isn't it? Not 
reinventing the wheel but all working toward the same outcome 
and hitting all the bases. Is it replicable in other States?
    Ms. Isaacs. It is. It is. And our Governor wants us to do 
protocols, best practice, and he wants us to share that with 
the rest of the nation. And we would like to help any other 
State. We will provide any information. And we are working with 
our sister states and they are all doing good work.
    Mr. Walberg. Have you had any issue in coordinating a 
response with the EPA? What might that be if there were?
    Ms. Isaacs. We engaged in this in full partnership with 
ATSDR and with EPA. We maintain that. We continue that. And we 
do appreciate that partnership because they are very much 
needed. Again national issue, states can't do it alone and they 
certainly can't control everything so we need our Federal 
partners.
    Mr. Walberg. But they are coordinating with you well?
    Ms. Isaacs. Yes.
    Mr. Walberg. How would you characterize your cooperation 
with affected communities? What can we learn?
    Ms. Isaacs. I would assume you mean our cooperation in 
communication. Part of what makes this effort successful is the 
transparency and the intense communication. We will communicate 
with any community that is really being tested. We want them to 
understand what this means. We want to address their concerns 
because they have them and they are really legitimate. We will 
do two to three community meetings. They will range from 15 
people, I think the largest one we have had is 1,200 people. We 
will stay and we will answer individual questions and we will 
allow people to come to the microphone for as long as they 
want. We think that is absolutely essential.
    I want to say that Michigan has always wanted the EPA to 
come in and we want them to hear what we have been hearing from 
our communities. We want them to hear the process of what the 
people think. So I am not involved in that negotiation, I am 
understanding that it is logistical and that is still certainly 
going forward. So Michigan has always wanted EPA to come in and 
we look forward to that.
    Mr. Walberg. Thank you. I yield back.
    Mr. Hudson. The gentleman's time is expired. I want to 
recognize the other gentleman from Michigan, Mr. Upton, for 5 
minutes.
    Mr. Upton. Thank you, Mr. Chairman, and again I appreciate 
all the witnesses here on the panel as well as obviously the 
first panel. And I particularly want to thank my Michigan 
colleagues here, Debbie Dingell and Tim Walberg, Chairman 
Shimkus and Walden for allowing this hearing to go forward. You 
can tell that there is quite a bit of interest to try and fix 
this problem not only in Michigan but around the country.
    And I guess as I reflect back on the last 5 or 6 weeks 
there was a term that our local sheriff used, Rick Fuller, that 
this is Team Kalamazoo. We got a problem and we have got to 
deal with it and let's take all the barriers down, partisan 
barriers, governmental barriers and let's work together.
    And as Governor Snyder said when he has been there on a 
couple of occasions--remember, this is a very small town, 
Parchment--this is a textbook example of about how we ought to 
work together. And as I talked to many of the residents 
delivering the water as they came to not only the high school 
but the church, people appreciated that. I didn't see a single 
disgruntled person. They recognize that there was an issue, on 
the short term we are going to roll up our sleeves and deal 
with it.
    And we have got a long-term problem as well, but again I am 
convinced that we are going to work on this as well. And 
frankly that was a big lesson that we learned from Flint. A 
finger could have and was pointed at all units of government 
and it was Dan Kildee, the congressman from there, myself, 
Debbie Dingell, Tim Walberg, and others, our senators that 
worked together to change the standard that forced EPA to 
acknowledge that they have got to be involved from the get-go 
from day one, and again that was my first question when we 
learned about Parchment.
    Votes are starting here on the House floor.
    A question I guess that I have for you, Ms. Isaacs, and 
again thanks for your work. You have been there a good number 
of times over the last couple of weeks. We have chatted on the 
phone. We have met in my office. You helped as we talked about 
my letter that we had sent back on August 1st. We want to help 
the citizens everywhere where this can be identified.
    And how frustrating was it for you to sit in the first row 
knowing that now we have these draft numbers, this draft report 
indicating that the numbers could be as high as 53,000 per 
trillion versus the 70 in terms of the standard? What do we 
have to do, where is Michigan on this standard at 70, and do 
you support EPA reviewing it to come down perhaps using the 
evidence there? How do you deal with an issue like this in 
terms of the State?
    And I guess my last part of my question is I just want to 
announce to folks that I have been working with staff and with 
again my able colleagues, Dingell and Walberg, to introduce 
legislation that I hope to be able to introduce next week to 
include Federal facilities dealing with PFAS so that everybody 
is on the same page.
    I have talked to the chairman, Mr. Walden. I would like to 
see this legislation move in this Congress to get to the 
President's desk. Again I think we could see some strong 
bipartisan support to certainly move it out of this committee 
and onto the floor and talk to the leadership. So look for that 
as a long-term issue.
    But back to my question before my time expires. How 
frustrating is it to you to see these results that we frankly 
feared? We suspected when the numbers didn't come out right 
away that we suspected that they may be way above the 70 parts 
per trillion. What is the State's response to this?
    Ms. Isaacs. Well, we would characterize our response to 
that is that we are very disappointed in the pace of the DOD 
and bases to respond to testing. I know they have been asked 
and that was the right thing that they were asked by the DOD to 
test, but the response rate is slow. And that means to me, if I 
don't have results on a base then I am going to initiate 
testing around the base because I don't want to risk and wait 
for results, and I have done that multiple times already.
    What I mean as testing, I am looking at exposure in private 
drinking wells and I wish that the pace was faster. I know they 
are obligated to use CERCLA, but there are no timeframes for 
those eight steps and you can remain in the investigation stage 
of CERCLA for a very long time. And so I would encourage them 
as I do, I do encourage them personally on the phone, we really 
need your results. I often hear that the bureaucracy is large 
and it takes a long time to get things through the system. I 
actually understand that. They don't have an MPART process.
    And so we are still in partnership because we need to be. 
We need to get the bases unified in the State to understand 
where water flows, geology, output. Those results help us 
determine if we need to test a river, we need to test for 
public health issues. So it is important to us that we get the 
results in a timely manner.
    Mr. Shimkus. The gentleman's time is expired. There are 
votes on the floor. I would like to turn to the gentleman from 
Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I will be very quick 
because I know we also have markups sometime scheduled at 1:00.
    Mr. Shimkus. Well, then just don't ask any questions and we 
can move forward.
    Mr. Green. Well, Mr. Olson, in your testimony you state 
that data shows that PFAS chemicals can have adverse health 
effects at low per trillion levels. At what level specifically 
is there evidence of health effects and how does that compare 
to the EPA's nonbinding 70 parts per trillion level?
    Mr. Olson. Briefly, I was relying primarily on the ATSDR 
report, which is part of the Centers for Disease Control and 
Prevention, which would suggest that levels down in the single 
digit parts per trillion can have adverse effects. And I think 
the more we learn, the more we are finding that these effects 
occur at very vanishingly low levels.
    Mr. Green. I think we have some commitment from some 
legislation, but should the Safe Drinking Water Act be amended 
to require the EPA to act within a certain timeframe? In fact, 
I will ask everybody on the panel. Just say yes or no.
    Mr. Olson. Yes. And we would like to see the standard 
setting strengthened so that it can be done quickly rather than 
take 10 years.
    Mr. Green. Yes.
    Ms. Donovan. Yes, agree.
    Ms. Isaacs. Yes, agree.
    Mr. Burman. Yes.
    Ms. Daniels. Yes, and it has to be less than 10 years. So I 
agree with that.
    Mr. Green. OK. Ms. Donovan, could you tell me how the 
residual PFAS contamination has affected your community?
    Ms. Donovan. It has left us with uncertainty and distrust. 
The issue that is happening in North Carolina is it has been 
very difficult to get the States to rein in the Chemours. They 
have spilled many times and we have issued notice of violations 
many times. If there had been stronger guidelines from the 
Federal level I think we would have been able to act quicker 
and we could have had swifter justice.
    I think we also in our situation have no information 
whatsoever. Everything that we are dealing with are chemicals 
that the Federal Government has not given any guidance on. So 
we are going it alone and we are figuring it out on our own and 
it has been incredibly time consuming in a State that is 
actually incredibly divided politically which has also mired us 
in some of this issue.
    So I am really grateful that you are taking the bipartisan 
approach and I would love for our state legislatures to follow 
suit.
    Mr. Green. Thank you. Well, I am from Texas and I 
understand. Mr. Chairman, I yield back my time.
    Mr. Shimkus. The gentleman yields back his time.
    Seeing no other members present, we would like to thank our 
second panel. We know this is a challenging issue but we are 
trying to figure it out as much as many of us are.
    Before I conclude I would like and ask unanimous consent to 
submit the following documents for the record: A letter from 
the National Groundwater Association; a letter from Culligan 
International Company; a letter from several groups including 
Safer Chemicals, Healthy Families; a letter from Purolite; a 
letter from the Water Quality Association.
    I also have a letter from a guy named Fred Upton from 
Michigan; another letter from, well, by numerous members to the 
Acting Administrator of the EPA Mr. Wheeler from Kildee, Boyle, 
Dingell, Lawrence, Upton, Bergman, and Fitzpatrick; a letter 
from the State of Michigan Executive Office to the Acting 
Administrator of the EPA from the Governor of Michigan; and 
finally, also from the Governor of Michigan to, it looks like 
the Secretary of Defense from the Governor of Michigan.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    The hearing is now adjourned.
    [Whereupon, at 1:07 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
